<html>
<title> - AIR TRAFFIC CONTROL SYSTEM MODERNIZATION: PRESENT AND FUTURE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]






      AIR TRAFFIC CONTROL SYSTEM MODERNIZATION: PRESENT AND FUTURE

=======================================================================

                                (109-82)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure









                    U.S. GOVERNMENT PRINTING OFFICE

30-652 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001










             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)



                        SUBCOMMITTEE ON AVIATION

                    JOHN L. MICA, Florida, Chairman

THOMAS E. PETRI, Wisconsin           JERRY F. COSTELLO, Illinois
HOWARD COBLE, North Carolina         LEONARD L. BOSWELL, Iowa
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
VERNON J. EHLERS, Michigan           ELEANOR HOLMES NORTON, District of 
SPENCER BACHUS, Alabama              Columbia
SUE W. KELLY, New York               CORRINE BROWN, Florida
RICHARD H. BAKER, Louisiana          EDDIE BERNICE JOHNSON, Texas
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
FRANK A. LoBIONDO, New Jersey        California
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, JR., New Jersey
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
JOHN BOOZMAN, Arkansas               RICK LARSEN, Washington
JIM GERLACH, Pennsylvania            MICHAEL E. CAPUANO, Massachusetts
MARIO DIAZ-BALART, Florida           ANTHONY D. WEINER, New York
JON C. PORTER, Nevada                BEN CHANDLER, Kentucky
KENNY MARCHANT, Texas                RUSS CARNAHAN, Missouri
CHARLES W. DENT, Pennsylvania        JOHN T. SALAZAR, Colorado
TED POE, Texas                       NICK J. RAHALL II, West Virginia
JOHN R. `RANDY' KUHL, Jr., New       BOB FILNER, California
York, Vice-Chair                     JAMES L. OBERSTAR, Minnesota
LYNN A. WESTMORELAND, Georgia          (Ex Officio)
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)


























                                CONTENTS

                               TESTIMONY

                                                                   Page
 Chew, Russell, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration..................    11
 Dillingham, Gerald, Director, Physical Infrastructure Issues, 
  U.S. General Accountability Office.............................    11
 Elsawy, Amr A., Senior Vice President and General Manager, 
  Center for Advanced Aviation System Development, the Mitre 
  Corporation....................................................    11
 Pearce, Robert, Acting Director, Joint Planning and Development 
  Office, Federal Aviation Administration, Air Traffic 
  Organization...................................................    11
 Waters, Hon. Maxine, a Re[resentative in Congress from the State 
  of California..................................................     8
 Zinser, Todd, Acting Inspector General, Office of Inspector 
  General, U.S. Department of Transportation.....................    11

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Riss, of Missouri.................................    41
Costello, Hon. Jerry F., of Illinois.............................   109
Pascrell, Hon. Bill, Jr., of New Jersey..........................   155
 Waters, Hon. Maxine, of California..............................   159

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Chew, Russell...................................................    42
 Dillingham, Gerald..............................................   112
 Elsawy, Amr A...................................................   146
 Pearce, Robert..................................................    42
 Zinser, Todd....................................................   164

                       SUBMISSION FOR THE RECORD

 Chew, Russell, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration:
  Responses to questions.........................................    57
  Responses to questions from Rep. Costello......................    69
  Responses to questions from Rep. Pascrell......................    76
  Responses to questions from Rep. Honda.........................    84
 Elsawy, Amr A., Senior Vice President and General Manager, 
  Center for Advanced Aviation System Development, the Mitre 
  Corporation, responses to questions from Rep. Costello.........   150
 Pearce, Robert, Acting Director, Joint Planning and Development 
  Office, Federal Aviation Administration, Air Traffic 
  Organization:
  Responses to questions from Rep. Mica..........................    85
  Responses to questions from Rep. Oberstar......................    92
  Responses to questions from Rep. Costello......................   105

                         ADDITION TO THE RECORD

Thompson, Gerald L., statement and responses to questions from 
  Rep. Costello..................................................   184

















 
      AIR TRAFFIC CONTROL SYSTEM MODERNIZATION: PRESENT AND FUTURE

                              ----------                              


                        Wednesday, June 21, 2006

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Aviation, Washington, D.C.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2167, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the subcommittee] presiding.
    Mr. Mica. Good afternoon, and I would like to welcome 
everyone to today's Subcommittee hearing of the House Aviation 
Subcommittee.
    The order of business today is going to be opening 
statements by members; I will lead off. We have one member 
witness that we will hear from.
    I understand there are going to be votes at 2:30, so maybe 
we can get opening statements and members' comments taken care 
of, and we may even get into the introduction of our first full 
panel.
    So, with that, I will begin. I have got a few comments I 
would like to make, and then I will yield to other members.
    Of course, the topic of today's hearing is air traffic 
control modernization, looking at both the present and future. 
And this Subcommittee first addressed the topic of today's 
hearing, air traffic control modernization, nearly a quarter of 
a century ago, during the first term of the Reagan 
administration, and since then the Federal Government has spent 
a whopping $44 billion taxpayer money on a seemingly and 
sometimes Don Quixotic quest to upgrade our Nation's air 
traffic control system. However, we still have a system today 
that relies on costly ground-base and sometimes 30-year-old 
technology that sometimes we think might be best suited for 
display in the Smithsonian Air and Space Museum down the 
street.
    Until recently, the ATC modernization effort has been 
plagued by costly overruns, scheduling delays, and 
mismanagement, making this one of the worst acquisition 
programs in the history of the United States Government. 
However, I have a caveat and I want to take this opportunity to 
commend our FAA Administrator, Marion Blakey, and also give 
accolades to our air traffic organization and chief operating 
officer, our COO, Russell Chew, and I think we are going to 
hear from him shortly, for both of their leadership.
    I have said before in some of these ATC modernization 
hearings, I feel like it is Groundhog Day; I keep living the 
day over and over again. But they have put a halt to some of 
the programs that we see in some of the dog chasing the tail, 
and now we are seeing some of our modernizations gain on-time 
performance and also looking at some reasonable budget costs.
    However, if we can't sustain this progress and make 
significant strides in modernizing the balance of our future 
ATC system, then I am afraid that the next decade we may see a 
meltdown of our Nation's air traffic control system. Such a 
meltdown would cripple our Nation's economy, which could lose 
in excess of $30 billion annually due to people and products 
not reaching their destinations within the time periods that we 
take for granted today.
    The need for ATC modernization is paramount. FAA's recent 
forecast conference could not have made it any clearer. Air 
transportation demand that is coming will demand even greater 
capability than we have today, of course. According to the FAA, 
domestic air passenger traffic will nearly double--in fact, I 
think this is wrong, I think it is going to more than double--
annually by 2015, and by 2015 we will expect, again, a doubling 
in our passenger count, and by 2025 they are looking at in 
excess of 1.5 billion passengers annually.
    While I am dismayed that our existing ATC system may be 
incapable of meeting air traffic demand in the near term, it is 
in fact a testament to the 50,000 employees of the FAA that our 
ATC system has been and continues to be the largest and safest 
in the world. It is now averaging only one fatal accident per 
five million flights, an incredible record.
    In light of these significant future demands on the 
national airspace system, Congress, in 2003 directed the FAA to 
develop a comprehensive plan for next generation air traffic 
control systems, also known as NGATS. NGATS, in essence, moves 
air traffic control from earth to the sky and space by 
replacing antiquated and costly ground infrastructure with 
orbiting satellites, onboard automation, and data link 
communications.
    Under the leadership of Mr. Chew--who is, again, I think, 
one of the finest public servants I have had to deal with and 
most capable people in any of the Federal agencies--I have seen 
this ATO plan starting to resemble a performance-based, value-
driven organization, and that is I think what Congress 
envisioned. Both the GAO and the DOT Inspector General found 
that the ATO has made significant progress in meeting costs, 
schedule, and performance targets for its major ATC acquisition 
programs.
    And some of this isn't easy. There is a lot of pressure 
from members not to make the consolidations, the improvements, 
and gain technology, sometimes replace antiquated systems and 
unneeded personnel. It is a tough fight, but he has persisted, 
Marion Blakey has persisted.
    I am pleased with the bold cost-cutting and productivity 
initiatives the ATO has implemented on the operation side, and 
I am hopeful that the transition to a satellite-based ATC 
system will open up other opportunities for even more 
significant, albeit politically unpopular, cost-saving 
initiatives, including the consolidation of major air traffic 
control facilities. The consolidation of regional offices and 
the decommissioning of ground-base navigational aids can take 
place without, I believe, any degradation to safety.
    However, in light of political opposition to such 
initiatives--and we saw some of that on the floor recently, and 
it is also evidenced by the reaction to FAA's proposal to 
consolidate certain radar stations or TRACONs--I believe that 
we need to consider maybe another method of handling this, 
since it is a political hot potato. I have gotten my hands 
burned, and it is difficult for people in political office to 
respond to some of these consolidations upgrades and necessary 
revisions, so I am proposing that we look at a base realignment 
and closure type commission, a BRAC type process, in the next 
FAA reauthorization bill. Maybe it will take some of the 
politics, hopefully, out of that process.
    While I am pleased that the FAA's Joint Planning and 
Development Office, the JPDO, has led an interagency effort 
towards planning and development, and they have been successful 
in establishing a time line for NGATS, I have two primary 
concerns. First, the JPDO's goal of completing NGATS by 2025, 
in my opinion, is too late, and that is because, again, the 
dramatic growth we are seeing in air travel and that we have 
expected to continue, and I see no reason for a change over the 
next decade.
    Despite the expenditure of, again, some $44 billion in 
taxpayer dollars on ATC modernization initiatives, the GPS-
based navigation system in one of the cars I rented recently is 
in fact more sophisticated than some of the 60-year-old radar 
technology being used to navigate some of our aircraft today. 
In light of the FAA's dismal track record on overall ATC 
modernization--and, again, this spans almost three decades or 
more--we need to consider increasing the role of industry as a 
means of expediting the development and implementation of 
NGATS.
    Ironically, our European friends have adopted a more 
industry-driven approach to their air traffic modernization, 
called SESAR, which warrants, I think, a closer look by the 
Subcommittee.
    My second concern is twofold: how much will NGATS costs and 
then, of course, the big question is how we are going to pay 
for it. ATO estimates that NGATS will cost between $15 billion 
and $18 billion. That is on top of the $44 billion we have 
already spent. We will hear more about that in testimony today.
    Finally, FAA also predicts that a funding gap between the 
FAA's capital accounts and NGATS requirements of between $500 
million to $1.2 billion will exist over the next five years.
    It is important to note that most of the FAA's existing 
$2.5 billion capital account, which is about half a billion 
dollars short of the amount authorized by Congress, goes mostly 
for existing ATC system running, not for NGATS-related programs 
that we are planning.
    In light of the $44 billion spent to date on ATC 
modernization, we owe assurances to the American taxpayer that 
NGATS will be a cost-effective system that will safely 
accommodate rising air traffic demands for decades and decades 
to come.
    With those comments, I am pleased to recognize our Ranking 
Member, Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. I will be very brief 
and put my statement in the record. We have our colleague, 
Representative Waters, waiting to testify, and I know that we 
have at least one or two opening statements here.
    First, let me thank you for calling the hearing today. Our 
air traffic system today is fundamentally based on radar 
tracking and ground-based infrastructure from the 1960's. Much 
of the FAA infrastructure is well passed its useful life. The 
increase in regional jets, the growth of point-to-point 
service, and the anticipated influx of very light jets are 
placing new and different strains on the system. It has been 
estimated that consumers could lose as much as $30 billion 
annually if people and products cannot reach their destinations 
within the time periods expected today. Modernizing and 
transforming our air traffic control system is a national 
priority.
    Yet, despite its importance, there is a major serious 
disconnect between the rhetoric and the resources being applied 
to this effort. For example, funding for the FAA's ongoing 
airspace redesign efforts, which is the key to enhancing 
capacity and reducing airline fuel costs, have been cut by 
almost 70 percent this fiscal year. For a third consecutive 
year, the Administration is proposing to fund the FAA's capital 
account at $2.5 billion, well below the level authorized in 
VISION 100.
    At the same time, this Subcommittee has been informed of 
preliminary FAA data indicating that the initial capital cost 
of the Next Generation System could be approximately $4 billion 
more than the FAA's current five year capital plan. By starving 
the FAA's capital account, the Administration is slowly setting 
the transformation effort up to fail.
    While the JPDO is a multi-agency effort, coordination 
between JPDO and the FAA is particularly important. However, 
both the GAO and the DOT Inspector General, as we will hear 
today, will testify that the JPDO does not have the authority 
to leverage key human and financial resources from the FAA. I 
look forward to hearing and asking questions concerning whether 
they believe the current level of coordination between the FAA 
and JPDO is adequate. If not, Congress should consider formally 
restructuring the relationship.
    Going forward, we will clearly need the talent, energy, and 
know-how of the American air traffic industry to develop our 
Next Generation System. However, the Government must maintain 
its ability to effectively manage and control its contracts. 
Given the long history of cost overruns on large-scale, highly 
complex air traffic acquisitions, I see the value in a phased 
incremental approach. An incremental approach to acquisition 
has been what the FAA Chief Operating Officer, Russ Chew, has 
attempted to do within the agency, and I look forward to 
hearing his testimony today.
    For many years, GAO has consistently reported that failing 
to involve the air traffic controllers in the technology 
development process has led to costly reworks and delays. The 
IG notes in his testimony that the need for focused human 
factors research has important safety implications. Common 
sense tells us that the people that will be using the new 
technology should be involved in its development. I am very 
concerned that the GAO is now reporting that no current 
controllers are involved in the next generation effort. I look 
forward to hearing from our witnesses on this issue as well.
    Additionally, the JPDO success at transformation depends 
largely on its ability to forge consensus with system users. 
Increasingly, the aircraft itself is becoming a part of our 
critical infrastructure, and airlines will be asked to make 
costly investments in equipment to take advantage of our new 
system. It may be time for Congress and the Administration to 
engage in a discussion about providing incentives for airlines 
to make the costly investments.
    Again, Mr. Chairman, I look forward to hearing from our 
witnesses and I have a number of questions for them, and I 
yield back the balance of my time.
    Mr. Mica. I thank the gentleman.
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. And thank you 
especially for calling this hearing. I think this is a really 
crucial issue that has to be addressed, and addressed soon.
    I recall we had a hearing about 1997, 1998 to identify the 
most crucial issues, and at that time it was airport capacity, 
or everyone assumed it was. I differed with that and commented 
that within the decade the biggest concern was fuel prices, 
which in fact is what happened. I think we will be able to 
resolve that problem, but not very easily.
    But I do agree that the greatest problem we face at the 
moment is air traffic control, and the entire system, as far as 
I am concerned, has to be redone. A lot of developments will be 
taking place. First of all, we can increase airport capacity 
with a modern, well operated air traffic control system without 
building any additional airport runways.
    Secondly, with the new electronics available, we can 
replace a lot of the human factor in air traffic control. But 
we have to do it right. And we have to recognize the 
vulnerability of that system, particularly to acts of war, 
because if we develop an air traffic control system based on 
satellites, we have to recognize how vulnerable the satellites 
are in moments of war.
    So we have a lot of things to discuss, a lot of things to 
worry about, and, unfortunately, have not done well in adapting 
over the decade that I have been on this Committee. And I have 
seen a lot of money wasted on attempts at air traffic control 
which simply haven't worked, and it is time that we zero in on 
the right solution and then proceed with it.
    I look forward to the testimony that we will hear, Mr. 
Chairman, and I hope that we will gain enlightenment on these 
subjects. Thank you.
    Mr. Mica. I thank the gentleman.
    Mr. Oberstar.
    Mr. Oberstar. If there are others.
    Mr. Mica. Other members seek recognition? Ms. Norton?
    Ms. Norton. Thank you, Mr. Chairman, and I appreciate this 
hearing. I am sorry I have another hearing as well and won't be 
able to stay for the full hearing, as important as it is.
    Every time we look at FAA, its mission gets more and more 
complicated. It gets complicated by technology which keeps 
racing ahead of us; it is complicated by 9/11 and all that 
entails; and, of course, it is complicated by these aging 
facilities, which become even more important to update in 
relation to these other two factors.
    We brag, I think justifiably, that we have the safest air 
control system in the world. I believe that. But it is a labor-
intensive system, and I hope we don't forget that. That under-
describes our dependence on air traffic controllers.
    We have just been through a very controversial labor 
dispute in the midst of all the rest of this. It was 
unfortunate that that happened. While the agency is thinking 
about modernization, as it must, I certainly hope it thinks 
about modernizing its labor relations as well. We need those 
controllers. We need them to be the very best, as they always 
have been, and it is very hard to be one of them today.
    Thank you very much, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Coble?
    Mr. Coble. Mr. Chairman, not unlike my colleagues, I thank 
you and Mr. Costello for having scheduled this hearing. And in 
the interest of time, Mr. Chairman, I won't take but very 
little time.
    But for what it is worth, someone said to me the other day 
that airports today have become what bus stations were 45 or 50 
years ago, that is, extremely crowded, consistent delays in 
takeoffs and landings, and it just brought to mind that air 
traffic is going to continue to be a very significant portion 
of our day-to-day living, and we need to address these problems 
and hopefully assuage the discomfort and the difficulty that is 
being felt by many air traffic customers and clients.
    And with that, Mr. Chairman, I yield back my time.
    Mr. Mica. Mr. Oberstar?
    Mr. Oberstar. Thank you, Mr. Chairman.
    Modernization of the air traffic control system has been a 
subject of inquiry by this Committee ongoing for over 20 years, 
years that I chaired the Investigations and Oversight 
Subcommittee and then the Aviation Subcommittee. In partnership 
with, first, Mr. Gingrich and then Mr. Klinger, we have 
vigorously overseen and inquired into the need for keeping our 
air traffic control technology the best in the world and ahead 
of the state of the art and ahead of the growth of aviation in 
this Country for safety and for efficiency purposes.
    There is a tendency to think of air traffic control as a 
static activity; you put it in place and then you come back 10 
years and you change it out. That is not true. FAA has 
installed, Mr. Chairman, over 70,000 pieces of technology in 
the past 15 years to keep ahead of the state of aviation, of 
the growth of aviation, of the needs to reconcile weather with 
travel and with efficiency and with effectiveness. Air traffic 
control is not a snapshot but, if you will, a movie, continuous 
progression over a period of time. To keep it progressing 
requires research, development, testing, and funding.
    The FAA, on the one hand, is criticized because it didn't 
put technology in place fast enough; on the other hand because 
it moved too quickly and didn't sufficiently test. I think FAA 
gets it just about right. My experience over these 20-plus 
years is that the FAA is very cautious, isn't going to put 
anything in place until it is fully checked out, until 
controllers are comfortable with the technology they are 
putting in place.
    And FAA has also learned something over the years: of 
involving the air traffic controllers and the system 
specialists who have to maintain the equipment at the very 
earliest stage, as you are designing the system, not after it 
is all designed, engineered and the equipment purchased or the 
contracts let. But, rather, get them involved early on, as 
learned with STARS, when it took way too long from the time you 
push a button on the control panel for the image to appear on 
the scope. You can't have a .25 second wait; you need that 
information now when you have an object traveling at 500 miles 
an hour, 7 miles in the air, when there is no curb to pull 
over, lift up the hood and see what is going wrong.
    So I appreciate all that is moving along in FAA. I used to 
get a monthly report on all the systems, but FAA isn't doing 
that any longer, unfortunately. The newest development is that 
of the Chief Operating Officer, Russ Chew, who has had a great 
career at American Airlines and has brought the advantage of 
his experience in the private sector to help FAA identify 
costs, the third leg of this modernization triangle that we 
need to untangle. Nothing will kill modernization faster than 
an underfunded system, an inadequately funded system.
    We are going to need the continued modernization in order 
to cope with the growth of aviation, as you, Mr. Chairman, 
pointed out in your opening statement and as Ranking Member 
Costello did. Very light jets, more regional jets, more point-
to-point service, shifting from short-haul, under 300 miles, to 
long-haul service that is far more valuable for the airlines, 
it is going to put new strains, new stresses on the system.
    We have to evaluate, once again, the en route structure 
that is way out of date. FAA is working on putting in place a 
much more streamlined en route system, but they are way behind 
in doing it; consolidating TRACONs and accommodating this 
growth. And in this regard, it is important to keep in mind 
that the Southern California TRACON handles more air traffic 
than all of Europe combined. That is an awesome responsibility. 
An awesome responsibility for us on the Subcommittee, for the 
FAA to maintain that technology ahead of the growth of 
aviation, to accommodate that growth.
    I look forward to this hearing, the information we will 
develop from it, and thank you and Mr. Costello for calling the 
hearing.
    Mr. Mica. I thank the gentleman.
    Further opening statements? Mr. Petri?
    Mr. Petri. Thank you very much, Mr. Chairman. I will be 
very brief. I just want to commend you and thank you for having 
this very important hearing on a subject that has been before 
this Committee for many years now. There is nothing going on as 
far as the Federal role in aviation that is more important than 
to get this right, and I thank you for this oversight hearing. 
Thank you.
    Mr. Mica. Additional members seek recognition?
    Mr. LoBiondo?
    Mr. LoBiondo. Thank you very much, Mr. Chairman, for 
holding this hearing. As the Chairman has so ably pointed out, 
we are managing an air traffic control system with technology 
and procedure developed in the 1970's or before that are not 
suited to the traffic demands of today. As a result, more and 
more flights are delayed, thousands of gallons of fuel are 
wasted, and airlines are losing money, and the flying public is 
inconvenienced.
    In order to keep our aviation system safe and efficient, we 
need to step up our investment in the next generation of air 
traffic systems. Sinking more and more money into keeping 
legacy systems operational is severely undermining our ability 
to make the investments we need to make in modernization. As we 
move to reauthorize the trust fund next year, I look forward to 
working with the Chairman and the Committee to free up money 
for modernization efforts through operational savings and 
creative financing methods.
    Finally, as we move forward with the next generation of air 
traffic control systems, I expect that the FAA's technical 
center, which is located in the second congressional district 
of New Jersey, will play the central role in development of 
this technology. I have received assurances that will be the 
case, and I intend to monitor the issue closely to ensure the 
FAA follows through.
    Once again, I would like to thank the Chairman for his 
interest and action on this very serious issue.
    Mr. Mica. Thank you, Mr. LoBiondo.
    Any other members seek recognition from the Subcommittee?
    [No response.]
    Mr. Mica. No further opening statements from members of our 
panel.
    We do have one member witness today, and we are pleased to 
have joining us from California's 35th District Representative 
Maxine Waters. And we will grant her the customary five 
minutes.
    So, welcome, and you are recognized.

 TESTIMONY OF THE HONORABLE MAXINE WATERS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Waters. Thank you very much, Mr. Chairman, Congressman 
Costello, distinguished members of the Subcommittee on 
Aviation. I thank you for allowing me to testify during this 
hearing on ``Air Traffic Control Modernization: The Present and 
the Future.''
    My congressional district is home to Los Angeles 
International Airport, the fifth busiest airport in the world. 
It is also home to the Western Pacific Regional Office of the 
FAA's Air Traffic Organization, commonly referred to as ATO. 
The modernization of our Nation's air traffic control system is 
of tremendous importance to me and my constituents, as well as 
the millions of travelers who fly into and out of my district 
every year.
    The FAA is proposing to restructure the ATO and three 
service areas: Eastern, Central, and Western. Under the FAA's 
proposed plan, the Eastern Service Area Office would be in 
Atlanta; the Central Office would be in Forth Worth; and the 
Western Office would be in Seattle. The six regional offices 
that would be adversely affected by this reorganization are in 
Anchorage, Boston, Chicago, Kansas City, New York, and Los 
Angeles. I believe that this plan represents a step backwards 
in the agency's mission to provide the safest, most efficient 
airspace system in the world.
    The FAA maintains that the restructure will yield savings 
of $360 million to $460 million over 10 years. I question these 
optimistic projections. Despite requests, the FAA has failed to 
disclose the analysis that support these projections.
    Congress cannot assess the agency's estimates without being 
given access to the full report of the ATO Structure and 
Process Evaluation and proper time to review it. I would also 
recommend a third-party review or audit of the projected 
savings.
    Under the proposed restructure, the relocated ATO employees 
would spend more time in travel and less time doing their jobs. 
More air travel by the ATO employees themselves would be needed 
to support and administer California, Arizona, New Mexico, and 
Nevada projects and facilities from a Seattle office. That will 
result in less work, more travel expenses, and diminished 
safety margins.
    Although I have seen varying estimates, approximately 400 
ATO employees nationwide would be reassigned to the three new 
service area offices. At least count, about 86 employees in the 
Los Angeles Regional Office will be given directed 
reassignments to an office 1500 miles away. Their choice will 
be to leave LA or to leave the FAA.
    The reorganization plan affects highly trained and 
qualified employees, the FAA needs to make the national air 
system as safe and as efficient as possible. It is not just 
secretaries and bookkeepers affected by the restructure; civil 
and electrical engineers are being given the ultimatum. These 
engineers are the men and women of our government's air traffic 
system who work with radars, navigation equipment, 
communication systems, and other technology that keeps planes 
in the air moving safely to their destinations.
    Under the plan, there would be a dramatic loss of 
intellectual capital from the FAA. The loss of civil and 
electrical engineers who would choose early retirement or 
resignation, rather than relocation, would strain the 
administration of air traffic, airspace, and engineering 
activities in the Western Pacific Region. This brain drain 
would adversely affect the safety of the flying public.
    Southern California is among the world's busiest airspaces 
and serves more passengers than any other region in the United 
States. Southern California Terminal Radar Approach Control, 
which provides radar air traffic approach control services to 
all arriving and departing aircraft for most airports in 
Southern California, is the busiest approach control in the 
world.
    Phoenix, Las Vegas, Albuquerque, Oakland, and Southern 
California are among the fastest growing sites of air travel in 
the United States. All of these airspaces and facilities are 
currently served by the Los Angeles Regional Office. Under the 
proposed restructure, they would all be served by Seattle.
    An ATO Service Area office needs to be close to Southern 
California facilities to provide immediate and expert 
attention. A Service Area Office 1500 miles away will result in 
neglect of these huge and critical facilities. Experience tells 
us that facilities located near headquarters and regional 
offices receive better programs and quicker services than 
outlying facilities. Distancing the service operations away 
from Los Angeles is folly.
    When a controller in a tower flips a switch to turn on a 
radar, that radar had better turn on. If it doesn't, someone 
from the regional office had better respond quickly. Neither 
the controller, the pilot, nor the air passengers will find 
solace that a repair has been delayed because the closest 
Service Area Office is over 1500 miles away.
    In conclusion, we all know that our Nation's need for air 
travel will continue to grow in the coming decades. This growth 
in air traffic will require trained and experienced FAA 
employees. These employees will be able to provide the best 
possible service if they are located near important air travel 
hubs like LAX.
    Modernizing the FAA should not be done at the expense of 
FAA employees or those who depend on their services. If the 
Subcommittee believes that the FAA should invest more resources 
in modernizing facilities and equipment, then the Subcommittee 
should seek an increase in resources for the FAA. Cutting FAA 
administrative services in order to increase funding for 
modernization is robbing Peter to pay Paul.
    I would urge the members of this Subcommittee to support 
the existing nine regional offices of the ATO and exercise your 
oversight responsibilities to ensure that the FAA does not 
implement this reduction in force. I look forward to working 
with the Subcommittee on Aviation to ensure the continuing 
safety and efficiency of air travel at LAX and throughout the 
United States.
    And I have full testimony that I will submit for the 
record.
    Mr. Mica. Without objection, the lady's entire statement 
will be made part of the proceedings.
    We do have about two minutes, if any members have any 
questions for Ms. Waters. No?
    And I will say we have looked into the issues you have 
raised. We do have an initial response from FAA we will be glad 
to share with you and make part of the record also.
    And then also I would like to extend to you we will have 
some of the people who have made these decisions on our panel. 
I can ask for unanimous consent, if you would like to come back 
and sit on our dias, and at the end of questions by the members 
of the panel, we would be glad to have you participate.
    Unfortunately, we do have about six minutes left for two 
votes, so what we are going to do is we are going to recess the 
hearing for 20 minutes. We will return at approximately 3:00. 
At that time, I expect to see all the witnesses at attention 
and ready to testify.
    So the Subcommittee will stand in recess until that time. 
Thank you again.
    [Recess.]
    Mr. Mica. The Subcommittee will come to order.
    We do have our first panel, and that consists of Mr. 
Russell Chew, Chief Operating Officer of the ATO of the Federal 
Aviation Administration; Mr. Robert Pearce, Acting Director of 
the Joint Planning and Development Office of FAA; Mr. Gerald 
Dillingham, Director of Physical Infrastructure Issues at the 
U.S. General Accountability Office; Mr. Todd Zinser, Acting 
Inspector General of the Office of the Inspector General, U.S. 
Department of Transportation; and Mr. Amr ElSawy, Senior Vice 
President and General Manager, Center for Advanced Aviation 
System Development, with The MITRE Corporation.
    And I will introduce each of you now. We will hear firs 
from Mr. Russell Chew, Chief Operating Officer of the ATO of 
FAA.
    I think most everybody has been here. If you haven't been 
here before, if you have any lengthy statements or material you 
would like made part of the record, please request so through 
the Chair. We will give Mr. Chew a little bit more time because 
he has got more to chew on.
    [Laughter.]
    Mr. Mica. But the rest of you we will try to keep you to 
the five minutes and then get to some questions.
    So, with that, let's hear our COO, Mr. Russell Chew. 
Welcome, and you are recognized.

TESTIMONY OF RUSSELL CHEW, CHIEF OPERATING OFFICER, AIR TRAFFIC 
 ORGANIZATION, FEDERAL AVIATION ADMINISTRATION; ROBERT PEARCE, 
ACTING DIRECTOR, JOINT PLANNING AND DEVELOPMENT OFFICE, FEDERAL 
   AVIATION ADMINISTRATION, AIR TRAFFIC ORGANIZATION; GERALD 
  DILLINGHAM, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, U.S. 
 GENERAL ACCOUNTABILITY OFFICE; TODD ZINSER, ACTING INSPECTOR 
   GENERAL, OFFICE OF INSPECTOR GENERAL, U.S. DEPARTMENT OF 
   TRANSPORTATION; AMR A. ELSAWY, SENIOR VICE PRESIDENT AND 
     GENERAL MANAGER, CENTER FOR ADVANCED AVIATION SYSTEM 
               DEVELOPMENT, THE MITRE CORPORATION

    Mr. Chew. Thank you. And we have submitted a more lengthy 
written testimony.
    Mr. Mica. Without objection, the entire statement will be 
made part of the record.
    Mr. Chew. Well, good afternoon, Chairman Mica, Congressman 
Costello, and members of the Subcommittee. Bob Pearce and I 
want to thank you for the opportunity to testify about our 
Nation's future air traffic system.
    You have been with us every step of the way--even before 
the enactment of the VISION 100 Century of Aviation Act--and we 
are most grateful for your continued leadership and commitment 
to this historic effort.
    Bob is going to talk to you about the JPDO's vision. I am 
going to talk to you about the actions we take today and how it 
affects the air transportation system of tomorrow.
    The Air Traffic Organization was created in 2004 as a 
result of your efforts, and today we can report real results. 
We are focusing on operations, costs, productivity, and sound 
fiscal management, and by operating more like a well-run 
business, we are able to field new technologies on time and on 
budget. In fact, last year, 92 percent of our schedule goals 
were met for 31 of our major programs and 97 percent of our 
major acquisition programs met budget goals.
    In addition to holding the line on cost, we must continue 
to maximize the efficiency of today's airspace, while working 
on the system of the future. Our work in the last year has 
reduced fuel costs for our airline customers, increased 
capacity, increased and improved safety, all while beginning 
the transition to the satellite-based system of tomorrow.
    In 2005, we doubled the capacity of our high altitude 
airspace with a program we call DRVSM and launched a new tool 
called URET--and completed that this year--that allows pilots 
and controllers to maximize the airspace, predict potential 
conflict between the airplanes earlier, and allow them to use 
more efficient flight paths.
    The increase in high altitude airspace allows us to offer 
more of our airline customers access to fuel-efficient routes, 
saving airlines about $5 billion over the next 10 years. That 
estimate could be conservative in light of current oil prices. 
Estimated savings to the aviation industry from URET in 2005 
were 25 million miles in aircraft travel, and about $175 
million in operating expenses.
    And we have expanded Area Navigation, what we call RNAV. 
Those are procedures to airports, including Atlanta, Dallas/
Fort Worth, Las Vegas, Washington-Reagan National, Washington-
Dulles, Baltimore, Los Angeles, Seattle, Reno, Cleveland, and 
Ft. Lauderdale. These RNAV procedures provide flight path 
guidance that is communicated directly to the aircraft's 
avionic systems, requiring only minimal air traffic 
instructions.
    Now, this significantly reduces the routine controller-
pilot communications, allowing more time on the frequency for 
pilots and controllers to handle other safety-critical flight 
activities. But RNAV procedures also use more precise routes 
for takeoffs and landings, which saves fuel. In fact, airlines 
operating out of the world's busiest airport, Atlanta, expect 
to save more than $39 million a year thanks to RNAV.
    Now, we are also implementing RNP, which is Required 
Navigation Performance. Now, RNP uses onboard technology that 
allows pilots to fly more direct point-to-point routes. That 
technology is reliable, accurate, and reaches all aspects of 
the flight, departure enroute, arrival, and approach. For 
example, in 2005, we partnered with Alaska Airlines to 
implement new RNP procedures for their approaches at Palm 
Springs International Airport, which is located in very 
mountainous terrain. Now, under the previous conventional 
procedures at Palm Springs, planes could not land unless the 
ceiling and the visibility were at least 2300 feet in terms of 
height and three miles of visibility.
    With the new RNP procedure, air carriers with properly 
equipped airplanes can now operate with a ceiling and 
visibility as low as 734 feet and just one mile of visibility. 
This lower landing minima has allowed Alaska Airlines to 
``save'' 27 flights between January and November of 2005, and 
these flights, which would have otherwise had to divert to 
Ontario, California, had an added distance of about 70 miles.
    Traffic Flow Management, what we call TFM, is the ``brain'' 
of the NAS and is the reason that we could handle more traffic 
at our major airports in 2005 than in 2000, without the long 
delays that made the summer of 2000 the worst on record. The 
TFM system is the Nation's single source for capturing and 
disseminating traffic information for the purposes of 
coordinating traffic across the aviation community.
    As the NAS is impacted by severe weather, congestion, and/
or outages, the TFM system provides timely information to our 
customers to expedite traffic and minimize system delays, and 
we estimate that TFM provides about $340 million in benefits to 
our customers every year through delay reductions. We are also 
currently introducing the new Airspace Flow Management 
technology to reduce the impact of delays incurred during the 
severe weather season of the summer. Now, combined with the 
modernization of our en route systems, these systems will allow 
for flexible routing around congestion, weather, flight 
restrictions, and help controllers to automatically coordinate 
flights during periods of increased workload.
    The future of satellite navigation is here with Automatic 
Dependent Surveillance-Broadcast, or ADS-B. ADS-B will replace 
ground-based radar systems ultimately and revolutionize air 
navigation and surveillance, and has the potential for broad 
operational applications for both pilots and controllers. We 
requested $80 million in fiscal year 2007 for the ADS-B program 
and, on June 7th, Bob and other members of the FAA Joint 
Resources Council approved a number of key initiatives as the 
program moves forward. This transformational technology is one 
of the key building blocks of the Next Generation Air 
Transportation System.
    Meanwhile, the ATO has continued to improve its 
organizational structure, yielding considerable operational 
improvements and cost savings. The ATO completed the 
outsourcing of the Flight Service Stations, the largest non-
Defense outsourcing ever in the Federal Government, which will 
save about $1.7 billion over ten years.
    Further organizational realignments are underway, with the 
ATO staff support in the nine FAA regions being consolidated 
into three service areas, which we expect to result in over 
$460 million in savings over the next ten years. Overall, ATO 
executive staffing has been reduced by over 20 percent, and 
management has been reduced by about 10 percent.
    But the largest percentage reduction is occurring in the 
non-safety positions. For controllers, we met our goal of 2 
percent productivity improvement in the en route service unit 
and a 4 percent improvement in productivity in the terminal 
service unit. These achievements translated into lowering our 
labor costs by 1.5 percent from 2004, even as ATO provided a 
5.1 percent salary increase.
    To stay on target, we needed a detailed business strategy. 
Our new business score card, which we call the Strategic 
Management Process, is what was fully implemented in fiscal 
year 2005 and how we accomplished these. We are using the score 
card to formulate our fiscal year 2008 capital budget, and the 
ATO has specific initiatives to drive our operation.
    There are four areas: achieving organizational excellence, 
enhancing financial discipline, increasing capacity where 
needed, and ensuring a viable future. The JPDO is partnering 
with us on this. These goals include a well defined metric set 
that have the focus of safety, efficiency, productivity, and 
cost; and they are communicated to every level of our 
workforce--from vice presidents to the technicians and 
controllers in the field--so that everyone understands the 
direction we are headed and the targets we are shooting for.
    So, now, that concludes mine, and it is over to Bob for the 
JPDO.
    Mr. Mica. Thank you.
    We will hear next from Robert Pearce, who is the Acting 
Director of the JPDO of FAA.
    Welcome, and you are recognized.
    Mr. Pearce. Thank you. Mr. Chairman, Congressman Costello, 
distinguished members of the Subcommittee, under the leadership 
of Transportation Secretary Mineta, FAA Administrator Blakey, 
and the entire Senior Policy Committee, the JPDO announced 
STARS as the focal point for coordinating transformation of the 
air transportation system across the Federal Government, as 
well as with the private sector. And with a strong partnership 
with Russ and the entire ATO, I have great confidence that we 
can achieve the kind of transformation envisioned by this 
Subcommittee.
    Our vision for the Next Generation System is not limited to 
increased capacity. It is one which encompasses the whole 
experience of the air traveler, from the moment the passenger 
arrives at the curb of his departure airport to their exit from 
their destination airport. So the Next Generation System 
includes security, safety, efficiency, and environmental 
compatibility. And as we assess the constraints facing this 
system, we have found that focusing on just one aspect--air 
traffic control, environment, airport security--will not get 
the job done. Each element of the system is indelibly tied to 
others and all must be addressed; otherwise, we shift the 
problem, we don't solve it.
    So the transformation will involve researching and adopting 
new technologies, changes in policy, adjustments to roles and 
responsibilities, and organizational change. It is important to 
understand we are doing this large and complex job in a public-
private partnership. Individuals from the agencies are working 
together with about 200 private sector individuals from the 
newly formed NGATS Institute, and between government and 
industry I think we have assembled a very incredible team.
    JPDO is achieving accomplishments towards this 
transformation. Last year, the JPDO brought the 2025 vision 
into focus, and through careful analysis we showed we are on 
track to achieve two to three times the capacity of today's 
system. This year we have defined the operational concept and 
enterprise architecture that adds meat to the bones of that 
vision. The block-to-block, or air traffic portion, is 
undergoing review right now by our stakeholders, and the curb-
to-curb version that will include security in airports is under 
development right now. These documents help create a real 
target for us to aim at and help organize the many technical 
and policy issues that we have to face over the next several 
years.
    But just defining that future vision certainly is not 
enough, and we have not stopped there. We have also created and 
released a roadmap that lays out the pathway, including time 
lines and transition sequences and so forth, that get us to the 
2025 system. Based on the roadmap, we developed an initial 
portfolio of modernization, research, policy efforts that need 
to be performed, and we are busy adding detail to that, 
including analyzing costs and benefits to that roadmap. In 
fact, we are holding some investment analysis workshops with 
the private sector through the Institute to make sure we better 
understand the benefits and costs, and so that we can optimally 
sequence the transition to NGATS.
    I have to say the benefits assessments are clearly showing 
that NGATS is worth the effort and will deliver enormous value 
to the Nation. Last year, the JPDO conducted its first 
preliminary interagency review, where it identified examples of 
how interagency collaboration could really deliver next 
generation capabilities now, not in the 2025.
    As a result, we moved ahead with plans to accelerate 
development of key NGATS projects like ADS-B and SWIM, which, 
as Russ said, are in the 2007 presidential request and have 
been approved through the Joint Resources Council. The re-plan 
of the NASA aeronautics program also reflects the longer term 
research needs of NGATS.
    I would like to pause for a minute on ADS-B. As Russ 
mentioned, ADS-B is a significant project for the future, and 
it is intended to eventually replace radar surveillance in the 
NAS with a cooperative surveillance system that is aircraft 
broadcasting on their GPS defined location. Ultimately, it is a 
much cheaper and more accurate system. But for it to make 
sense, it is both the hardware, the avionics on the aircraft, 
the transceivers on the ground, as well as the applications, 
such as pilots doing self-separation between aircraft in low-
visibility conditions, that create the benefits.
    And the reason I bring this up is because I think it is 
instructive as to how we need to go about doing the 
transformation. Fielding more capable infrastructure while 
researching ever-more advanced applications is what is going to 
deliver the performance and deliver the transformation. So it 
is definitely a process, an evolutionary process of building a 
little and delivering performance.
    This year we are building on the success of that first 
program review, and we have provided guidance to the agencies 
and are working with them right now in the 2008 budget. Our 
strategy this year is to fully understand the Federal 
investment and to make sure we do the realignment and fill the 
gaps that are necessary to accelerate implementation.
    We are also working closely with Russ and the ATO in 
restructuring the Operational Evolution Plan. This effort is 
going to provide a very efficient way for Russ and I to make 
sure that the FAA commitments to modernization and change are 
aligned in the NGATS vision.
    We are also working internationally. We have active 
collaboration now with China, Japan, and Europe. NGATS has to 
work globally, and we are committed to making that a reality.
    Mr. Chairman, we look forward to working with you and the 
Subcommittee on this critical endeavor. This concludes my 
testimony. I look forward to comments, and thank you for the 
opportunity.
    Mr. Mica. Thank you.
    Our next witness is Gerald Dillingham, Director of Physical 
Infrastructure Issues at the GAO.
    I want to take just a moment to commend Mr. Dillingham and 
his team of professionals at GAO for some of the work they have 
done for the Subcommittee and for me recently. One of those is 
the impact of the unmanned aerial systems and also very light 
jets, their impact on our national airspace system, and also 
for their work on reviewing the cost of airport infrastructure 
projects and improvements needed to accommodate the new Airbus 
380.
    I do appreciate your work on those issues for me, and, 
again, your fine team of professionals, and recognize you now 
for your testimony. Welcome, sir.
    Mr. Dillingham. Thank you, Chairman Mica, Mr. Costello, and 
members of the Subcommittee. I am pleased to be here this 
afternoon to share with you the preliminary results of our 
studies of the ATO and the JPDO that you have asked us to 
undertake for this Subcommittee.
    With regard to the ATO, the ATO has undertaken many 
initiatives to address the long delays and tremendous cost 
growth that plagued the modernization program for the past two 
decades. For example, ATO has instituted a revised acquisition 
process that includes more senior management oversight and 
accountability. As you have heard Mr. Chew say, one result of 
this and other initiatives is that, for the first time in 
recent history, ATO has met its goals for acquisition 
performance for each of the past two years. To its credit, ATO 
has also made improvements in its financial management of the 
ATC modernization program.
    Mr. Chew also mentioned that the ATO expects to realize 
hundreds of millions of dollars through cost savings 
initiatives such as consolidating regional office 
administrative functions and contracting out flight service 
station operations.
    Mr. Chairman, we believe that, based on well-designed 
business and safety cases, these types of initiatives could be 
expanded to include decommissioning additional legacy 
navigation aids and consolidating some air traffic control 
facilities. These kinds of initiatives have the potential to 
generate significant savings without compromising the safety or 
efficiency of the system.
    Mr. Chairman, along with the successes, there are some 
challenges on the horizon for ATO. The first challenge for ATO 
is that of institutionalizing the progress that has been made 
in operating as a performance-based organization. This is key 
to extending this progress beyond the current FAA and ATO 
administration.
    Second, ATO must continue to do what is necessary to meet 
its established goals for costs, schedule, and performance for 
its major acquisitions. And, third, ATO must ensure that it has 
access to the personnel and skills that will be necessary to 
implement NGATS, keeping in mind that NGATS will be one of the 
Government's most comprehensive and technically complex 
undertakings in recent times.
    Mr. Chairman, this brings me to JPDO and NGATS. The JPDO 
has also made notable progress in planning for NGATS. Its 
efforts have included extensive collaboration among the partner 
agencies, private sector stakeholders, and the international 
aviation community. The JPDO has also established a robust 
suite of models to support the technical planning needed for 
NGATS.
    However, there are some critical issues that need to be 
addressed. High on the list is the appointment of a director 
for JPDO. JPDO has been without a permanent director for nearly 
six months. Permanent leadership is critical to maintaining 
program momentum and stakeholder commitment. Another challenge 
is that JPDO lacks any real authority over agency budgets, and 
largely relies on part-time and pro bono staff. This situation 
could become a serious problem in the relative near term as 
JPDO's need for staff and fiscal resources increases.
    Mid-range technology development presents another 
challenge. At this point, it is unclear which Federal agency or 
private sector entity will plan, conduct, and pay for the 
research to develop a given technology from a basic level to a 
level that could be demonstrated in the national airspace 
system.
    Another challenge is the timing of the development and 
refinement of the enterprise architecture. The enterprise 
architecture is the blueprint for NGATS and will identify the 
technologies that will constitute the system, as well as their 
development and implementation sequence. It will also be the 
basis for estimating the total cost of NGATS.
    To date, only preliminary cost estimates are available. One 
of these estimates indicates that the cost to both continue to 
operate the current NAS and transition to NGATS will require an 
increase of about $900 million each year over FAA's current 
appropriation. This means that FAA will need a budget of at 
least $15 billion each year between now and 2025. Mr. Chairman, 
this could be a low estimate.
    It is important that the money is available when needed. 
Our work on the current modernization program has shown that 
when ATC technologies receive fewer resources than called for 
in the planning documents, and those resources are not made 
available when needed, it was a contributing factor to 
significant delays in getting the technologies into the 
national airspace system, as well as significant cost 
increases.
    Mr. Chairman, these are all important and difficult 
challenges, but because this transformation is critical to the 
Nation's economic well-being, failure or significant delays in 
implementation cannot be an option. Thank you.
    Mr. Mica. I thank you for your testimony.
    Now we will hear from Mr. Todd Zinser, Acting Inspector 
General of the Department of Transportation.
    Welcome, sir, and you are recognized.
    Mr. Zinser. Thank you, Mr. Chairman, Mr. Costello, members 
of the Subcommittee. We appreciate the opportunity to testify 
today and we commend the Subcommittee for holding this 
important oversight hearing.
    While there is considerable debate about how to finance 
FAA, there is almost universal agreement that changes are 
needed to meet the demand for air travel. At this 
Subcommittee's request, we examined progress to date with the 
JPDO. Today I will limit my testimony to three points and 
request that my full statement be submitted for the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Zinser. First, some perspective on FAA's fiscal year 
2007 budget request and key modernization projects. FAA is 
requesting $2.5 billion for its capital account, which is $50 
million less than last year's request and more than $500 
million less than the authorized level. This is the fourth year 
that funding requests are below authorized levels. As we noted 
before, increasing operating costs have crowded out the capital 
account. Most of FAA's current capital account focuses on 
keeping things running, not new initiatives, and only about 55 
percent of the capital account actually goes for air traffic 
control systems.
    I would like to highlight two ongoing multi-billion dollar 
projects that will be critical to the Next Generation System.
    First, ERAM, with a price tag of $2.1 billion, replaces the 
brain or central nervous system at facilities that manage high 
altitude traffic. This year is critical for ERAM because FAA 
plans to spend $1 million a day on the program, but, more 
importantly, if not kept on track, there will be a cascading 
impact on FAA's ability to deliver future systems.
    Second is FAA's FTI program. It is an effort to replace and 
reduce the cost of FAA's entire telecommunications system for 
air traffic control. It has a life-cycle cost of $2.4 billion. 
We have concerns about the FTI program and whether or not it 
can be delivered on time. We have made recommendations to FAA 
to help FTI get on track. FAA has agreed with our 
recommendations and we will be following up to make sure this 
important program gets done.
    My second point is that while the JPDO has made progress, 
considerable work remains to align agency budgets and plans. 
Central to the JPDO's mission is the alignment of agency 
resources. This is a complex task since each agency conducts 
research for its own mission. We looked at three of the JPDO's 
eight integrated product teams and found a lot of coordination, 
but so far little alignment of budgets. We found product team 
leaders have no authority to commit agency resources and often 
have no products other than plans. The JPDO expects to do much 
more in time for the fiscal year 2008 budget, but right now it 
is hard to assess alignment because JPDO's progress reports do 
not provide details of ongoing research projects and budgets at 
other agencies.
    My third point focuses on the actions needed to shift from 
planning to implementation. Mr. Chairman, right now the key 
questions for the JPDO to focus on what the new office can 
deliver, when, and how much it will cost. Our prepared 
statement outlines nine actions that we believe will help shift 
JPDO initiatives from a research agenda to implementation. I 
will briefly touch on a few of them.
    One is leadership. The position of the JPDO director is 
currently vacant. FAA needs to find the right person, a leader 
whose stature and experience is commensurate with the mission 
at hand. Getting to the Next Generation System is an 
extraordinarily complex undertaking. I am not sure what the 
appropriate analogy is--the Apollo program of the 1960's or the 
Navy nuclear submarine program of the 1950's--but NGATS will 
require an extraordinary effort from all of us, and it is too 
important to the Nation to not apply our best talent and 
effort.
    Two is getting Congress reliable cost information. Last 
year, the Administration promised this Subcommittee that they 
would provide some clarity on the cost this year. That has not 
been accomplished. This will be critical in the upcoming debate 
about how to best finance FAA. Cost data is needed in three 
vectors: research and development that will be needed, 
adjustments to existing projects such as ERAM, and cost to 
implement NGATS initiatives.
    Three is developing and implementing mechanisms for 
alignment. The JPDO is working with OMB to develop an 
integrated budget document that provides a single business 
case. As part of this, the JPDO has promised to provide OMB in 
the next several months with an architecture for the Next 
Generation System, as well as a list of programs and other 
agency budget it intends to leverage.
    Four is risk management with the Next Generation System. 
Given FAA's past track record with modernization projects and 
potential investments for NGATS, the JPDO and ATO need to 
articulate what they intend to do differently and what skill 
sets are needed. There is a lot of discussion right now in FAA 
and industry about whether a lead systems integrator would be 
needed to help integrate new and ongoing systems and manage the 
transition. Models for a lead systems integrator vary 
throughout the Government. Questions about the roles, 
responsibilities, and costs would need to be examined for such 
an approach.
    Mr. Chairman, once requirements have been established, the 
JPDO will have to put together a focused human factors effort 
that integrates NASA and FAA human factors research. And that 
concludes my statement, and we would be happy to answer any 
questions that the Subcommittee may have.
    Mr. Mica. Thank you.
    We will hear from our last witness, Mr. Amr ElSawy, Senior 
Vice President and General Manager for the Center for Advanced 
Aviation System Development with the MITRE Corporation.
    Welcome, sir, and you are recognized.
    Mr. ElSawy. Thank you, Mr. Chairman, Mr. Costello, members 
of the Committee. Thank you for inviting me. I have submitted a 
statement I would ask to be included for the record.
    Mr. Mica. Without objection, so ordered.
    Mr. ElSawy. Mr. Chairman, in addressing the Committee 
today, I will focus on the opportunities that lie ahead for the 
JPDO efforts and how they have the potential for changing the 
way that air traffic management services are provided in the 
United States and around the world. Specifically, I want to 
address how those changes would be reflected in the 
architecture of today's system and what we must do now to plan 
for the transition to the Next Generation Air Transportation 
System.
    Any updates that we make to the architecture of an 
operational system require coordination and synchronization of 
changes that involve people, procedures, and systems. We must 
have a clear understanding of the capital and the operating 
costs related to the implementation of those changes, and 
today, in an era of limited resources and increasing demand, we 
must also understand, as we have heard from the other 
witnesses, the resultant productivity, cost, safety, capacity, 
and efficiency benefits.
    The changes that are needed to address the projected future 
demands on the air transportation systems cannot and will not 
happen all at once. History has taught us that ``big bang'' 
approaches of the planning and development of systems do not 
succeed, and that those responsible for the operation must 
drive the change to the future.
    For example, NASA's aviation research programs and results 
will need to be ready to transition into an FAA development 
program that is adequately funded to mature the research and 
work with industry on operational integration. The FAA must 
have a clear understanding of the readiness of the research 
results and a serious, funded, plan for the inclusion of that 
research into an operational safety-critical system. Any gaps 
in the handoff between the research and implementation will 
significantly undermine the success of the JPDO initiative.
    Today, traffic levels and delays have returned to levels 
seen prior to September 11th of 2001 in many areas of the 
Country. Those areas include airports in Chicago, Atlanta, 
Washington area, New York area, Las Vegas, South Florida. There 
have also been increases in traffic in smaller airports in many 
areas of the Country.
    Beyond this year, commercial and general aviation will 
continue to see changes. The NAS will likely continue to see 
traffic growth, changes in traffic patterns between major 
airports and metropolitan areas, and changes in the mix of 
aircraft that make up the traffic. In addition, unmanned 
aircraft systems, very light jets, and commercial space 
launches will need to be accommodated in the future NAS, each 
bringing its own challenges for the operation of airspace, 
controller workload, and system complexity. Projections 
developed by DOT, FAA, and MITRE indicate that, by 2013, 16 
airports and 7 metropolitan areas will need additional capacity 
to meet the expected demand.
    In order to meet the needs of this dynamic marketplace, the 
FAA and the aviation community need to reach rapid consensus on 
the key enabling capabilities and to implement changes in 
technology, procedures, avionics, and policy that can, 
together, increase operational efficiency and productivity.
    We believe that the following actions are the foundation 
for the Next Generation System and should be funded and started 
now:
    First, to take advantage of aircraft capabilities and 
avionics to implement the FAA's roadmap for performance-based 
navigation. This is a significant change because it is 
equivalent to adding precise navigation lanes in the sky 
without requiring additional ground-based equipment. Mr. Chew 
talked about the importance of RNAV and RNP.
    Second, accelerate the implementation of the airspace 
changes to be more flexible and to accommodate the expected 
growth in traffic and new airspace users such as unmanned 
aircraft systems. Again, this has the real effect of 
streamlining traffic flows into congestion areas and providing 
more efficient arrival and departure paths for all users. Small 
investments by the FAA result in a significant benefit for the 
users and the system as a whole.
    Third, emphasize the enhancement of automation and decision 
support tools to enable controllers to handle more traffic by 
presenting them with automated conflict-free problem 
resolutions, thereby increasing system capacity and 
productivity and improving safety and the quality of service 
provided to the customers. With the on-schedule completion of 
the software development of the En Route Automation System, now 
is the time to plan and fund the next increment of the 
automation capabilities and NGATS extension.
    Third, to develop a firm plan for the implementation of 
air-to-ground data link that will enable controllers and pilots 
and their respective ground and onboard aircraft automation 
systems to exchange digital messages that yield efficiency, 
productivity, and safety improvements.
    Fourth is to improve the traffic management capabilities 
that Mr. Chew talked about.
    Fifth, to transition to Automatic Dependent Surveillance-
Broadcast system.
    Sixth, to use advanced simulation technologies to train the 
new controller workforce.
    Seventh, to maintain a strategic view of the investment in 
airport infrastructure and runways.
    And, finally, to develop and implement policies that enable 
improved access to airports through the use of modern and 
improved avionics and procedures instead of ground-based 
infrastructures.
    Mr. Chairman, these actions will position us to meet the 
increasing demand and improve the overall productivity and 
efficiency of the system. Implementing these changes will keep 
the United States as innovators and leaders of the global 
aviation community.
    Thank you.
    Mr. Mica. I thank you, and I thank all of our panel of 
witnesses. We will turn to some questions now, and I had 
offered to let Mrs. Kelly go first. She is ready. Mrs. Kelly?
    Mrs. Kelly. Thank you so much, Mr. Chairman.
    I would like to ask Mr. Chew and Mr. Pearce. I want to talk 
with you about a serious concern that I have with the FAA's 
treatment of Stewart International Airport in my district. A 
new tower came online last Friday. We have been waiting a long 
time for this new tower, and I appreciate the FAA's assistance 
in making that happen.
    What I can't appreciate, however, was the FAA's decision to 
tell Stewart officials last week they couldn't take the radar 
they have from the old tower and put it in the new tower. Since 
then, the controllers in the new tower at Stewart have been 
landing planes with no radar whatsoever because of a glitch in 
the software of the new radar system.
    An air traffic controller up in New York is quoted in our 
local newspapers as saying the action by the FAA was, and I 
quote, ``asinine.''
    To refresh your memory, Mr. Chew, the FAA itself decided to 
install the TARDIS radar system in the Stewart tower after they 
had conducted a special evaluation of the airport's needs in 
November of 1999. Following that, the DOT Inspector General 
examined the FAA's actions and determined that TARDIS was 
assisting the controllers at Stewart. This recent decision has 
put us in a situation where the FAA is prohibiting the use of 
equipment, onsite equipment that they themselves installed and 
the IG has said assists our controllers at Stewart. I think it 
is absurd, Mr. Chew.
    So while we are having a hearing down here in Washington 
about FAA's plans for the future, back in my district the FAA 
has forced Stewart Airport to return to the past, back to the 
pre-1999 radar standards in the air traffic control tower, back 
to binoculars. Can we end this stalemate right now? Can the FAA 
give Stewart Airport and its controllers the permission that 
they need today to move the radar system from the old tower to 
the new tower until they get what they need in the new radar 
system from you later this year?
    Mr. Chew. Yes.
    [Laughter.]
    Mrs. Kelly. That was easy. Mr. Chew, I hope you really mean 
that.
    Mr. Chew. I do.
    Mrs. Kelly. I would have preferred to have gotten that 
confirmation last week, when I wrote a letter to the FAA, but I 
do appreciate your efforts.
    Mr. Chew. I don't want to impugn the people who are trying 
to make those decisions. When we found that the software glitch 
that you spoke of would take several months to rectify, that is 
when the decision was changed. But we do appreciate the 
situation that Stewart is in, and we will support that.
    Mrs. Kelly. I am somewhat concerned still about the time 
line for the new radar system that is coming online. The RACD-2 
was supposed to be delivered and installed before that new 
tower was opened, and I know they held back on opening the new 
tower, hoping that system would be in.
    Now, since you will now allow us to move the TARDIS system 
there, I hope that the airport officials will be hearing that 
it won't be until November that we get that new system. I want 
to make sure that the FAA doesn't use the existence of this 
TARDIS as an excuse to push back the delivery date for the 
RACD-2. I think that is very important for the safety of our 
people at Stewart.
    Mr. Chew. Yes. In fact, it was the desire to move ahead to 
the new system that was really the original genesis for saying 
let's not move the old system. So I will get an answer for you 
for that and we will get back to you.
    Mrs. Kelly. As soon as possible, I think that will be 
helpful. But if you will allow us to move the TARDIS system, 
that is a big plus, and I am very grateful for your answer of 
yes. Thank you.
    I yield back.
    Mr. Mica. Mr. Costello?
    Mr. Costello. She quit while she was ahead, huh?
    [Laughter.]
    Mr. Costello. Mr. ElSawy, let me ask you a few questions, 
please. There has been a lot of discussion, both the Chairman 
mentioned in his opening statement and others have talked about 
the comparison between the design and implementation of the 
Next Generation system versus what is going on in Europe. So 
tell me, in your judgment, are we behind what they are doing, 
as far as design and implementation in Europe? Can you make the 
comparison for us?
    Mr. ElSawy. Thank you, Mr. Costello. I think the short 
answer is no. If you think about progress and how we are making 
progress, it is really made through implementation of 
capabilities And let me just take you through where we are in 
the United States.
    First of all, GPS. Satellites are up, they are running. We 
have one of the most accurate augmentation systems in the world 
providing global coverage and enabling access to over 5,000 
airports in the United States, providing access to rural 
communities. That is unique to the United States. Other 
countries are trying to emulate and copy that, which I think is 
going to be very effective for reducing the cost of the 
infrastructure in the future.
    The implementation of the airspace changes, the RNAV, RNP 
implementations that are going on today; the implementation of 
the conflict probe in 20 centers in the United States is first 
in the world and the decision to move ahead with the 
implementation of ADS-B to allow a completely different 
generation of applications to be implemented; the way that we 
run traffic based upon VFR capacities in the airports versus 
IFR capacities; the cost of our system.
    In short, I think that we are making a lot of progress in 
building the foundations necessary for the future. The 
Europeans are in fact ahead in terms of building a governance 
structure to manage their planning activities, but I don't 
think that in terms of implementation that they are ahead.
    Mr. Costello. Thank you. The corporation that you work for 
made an analysis of our Government using an LSI, and I wonder 
if you might talk a little bit about the analysis that your 
corporation did and the potential risk associated with using an 
LSI and what recommendations that you would have should the 
Government decide to go in that direction.
    Mr. ElSawy. Certainly. Thank you.
    Let me just refer to my notes. A couple of points I think 
are very important. In looking at complex acquisitions, we 
realize that, as we looked at acquisitions across the 
Government, a couple of things characterized failed programs: 
certainly, that the requirements were unrealistic, too complex, 
or too rigid and unstable; that there was a lack of operating 
systems engineering and architecture established; that there 
was insufficient weight given to the prior performance in 
contractor selection; there was an insufficient commitment to 
ensure adequate and stable funding; and that program management 
did not adequately anticipate risk.
    And we believe that successful programs, first of all, 
require a strong government program office that is capable of 
having a peer relationship with the prime contractor or the 
systems engineering and program management; there has to be 
careful attention paid to foundational elements, including the 
architecture and the standards; and there has to be an emphasis 
on risk management and risk reduction.
    The bottom line is that the Government really cannot and is 
unable to transfer its risk to a lead systems integrator or 
prime systems integrator. The Government has to know what it 
wants specifically. The successes that you have mentioned in 
the FAA, whether it is in the free flight program with the 
implementation of URET or the traffic management advisory 
system or the implementation of ERAM, really demonstrate that 
you have to know what it is that you want, you have to be able 
to manage the risk, you have to maintain the requirements, and 
you have to have strong government oversight.
    So, without those things, I don't think any model would 
work, and certainly the LSI model, as we have seen around the 
Government and the DOD, has lots of issues. My understanding is 
that DOD is also going to complete a comprehensive analysis of 
their experience, which will be available in September of 2006.
    Mr. Costello. In your written testimony you call upon the 
FAA to accelerate their implementation of airspace changes. You 
heard me and others talk about the 70 percent cut in the 
airspace redesign program. I wonder if you might talk a little 
bit about the, in terms of potential capacity, the benefits in 
fuel savings for airlines, how significant is the FAA airspace 
realignment or redesign program and how significant are the 
setbacks, taking into consideration the 70 percent funding 
cuts?
    Mr. ElSawy. And I think that, again, without referring to 
specific programs, we believe that the airspace changes are 
probably perhaps among the single most important changes and 
the cheapest changes that can be done to the system, because an 
efficient airspace structure enables runways to be used more 
efficiently; enables departure and arrival routes to be 
established more efficiently.
    As we have seen in Atlanta, it enables us to implement new 
procedures and to, in fact, coordinate the traffic flows in and 
out of major areas. Los Angeles was the same way. Florida, the 
Florida airspace optimization project was a perfect example 
where, with changes in procedure and airspace structure, small 
investments by the FAA yielded tremendous investments and 
benefits to the specific airlines.
    Mr. Costello. Thank you.
    Mr. Chairman, I do have a few other questions for the other 
panelists, but I have run out of time, so hopefully you will 
come back for a second round.
    Mr. Mica. OK. We will come back.
    Let me pop a few out here.
    I heard some different figures on cost. Two critical things 
in all of us getting to more modern system in the next 
generation is cost. I think--well, one of the witnesses was 
talking about $900 million additional dollars. Was that 
Dillingham? Fifteen billion dollars over--and that was supposed 
to be a low estimate. That is correct? What does that get us 
and where does that get us?
    And then after you, Mr. Chew.
    Mr. Dillingham. Mr. Chairman, I think I should preface my 
comments by saying right now all of these estimates are soft, 
to say the least. What is missing is the enterprise 
architecture, which is due out soon, which will in fact tell us 
what kind of technologies are going to be involved and give us 
a better handle on costs.
    Mr. Mica. So you are just guessing about a billion more a 
year.
    Mr. Dillingham. Well, we are not guessing, we are reporting 
what some studies have in fact said.
    Mr. Mica. Does that give you a full architecture to begin 
implementing next----
    Mr. Dillingham. You need a full architecture to be getting 
closer to a cost that you can count on. I don't think FAA or 
JPDO would stand behind any numbers at this point. And when I 
said it was a low cost, even those low estimates aren't 
including some of the things that would normally be included. 
So the need to have these workshops that they are planning over 
the rest of the summer will be also part of the input that goes 
into it. But clearly it is going to be an expensive 
proposition.
    Mr. Mica. So we talked about some implementation, 15 and 
6--we might do it by 2021 as opposed to 25? Is that in this 
calculation or is that just a coincidence, the 15 years you 
picked?
    Mr. Dillingham. I am sorry, I am not sure what you are 
referring to.
    Mr. Mica. I thought you said it would take about 15 years, 
about $15 billion.
    Mr. Dillingham. That is the schedule for the end of NGATS 
or NGATS being in place. Of course, as soon as NGATS is in 
place, the next NGATS is going to start as well. So that is 
just a time frame, and with that an annual $15 billion.
    Mr. Mica. Mr. Chew, people are accusing you of robbing 
Peter to pay Paul with really not much money. Right now, very 
small amounts or no money is going into sort of Next Generation 
and some of these other projects. Actually, we cited two. We 
are, what, $2.4 billion, $2.5 billion capital. How do you 
respond to those charges? And then--obviously, this is going to 
take more money, and we don't know exactly how much. That has 
been testified to. And at some point you are going to have to 
come up and tell us how we are going to get there. But 
obviously that is going to take significant additional capital 
contribution. Do you want to comment?
    Mr. Chew. Yes. As far as robbing Peter to pay Paul--I will 
take that part first--it is important to note that one of the 
things we have done since we started the ATO was to do a very 
complete review of our major capital programs. We have, in 
fact, reviewed over 60 of them. That review has caused us to 
cancel and restructure the capital programs to a savings in the 
last two years in capital of over $450 million.
    It is very important that when we invest in NGATS, when we 
want to reach goals, that those goals are clear and simple. The 
worst thing we could do is invest in the wrong thing. We need 
to invest in the right thing. That means we have to make those 
investments carefully. And we don't want to make them just 
because we think it might be a good idea; we need JPDO to help 
us prove that it is the right idea. And once we do that, what 
we are doing now--and what you will hear about next week from 
the Administrator--is we are going to build a plan to get from 
the current national aviation system to NGATS; and that is a 
plan with milestones and achievements based upon the 
capabilities that the JPDO sets before us.
    But we have to understand that the emerging new markets, 
things like very light jets, the UAVs, will add some 
uncertainty to that number. So I think what we will end up 
providing you in the long run is probably a number with some 
uncertainty around it, maybe a range of numbers. Is it going to 
be expensive? Yes. But can we economize on many of the current 
programs we have today? Yes.
    But the one thing about this architecture is this 
architecture has to be complete. It has to include not just the 
next generation system, it also has to include what we are 
doing with our old generation system. And as you mentioned 
before, it has to include the plan of how many people and 
facilities it is going to take to actually execute this over 
the next 20 years.
    Mr. Mica. Just for the record, I didn't mean to be critical 
of you, I wanted to just throw out some of the criticisms I 
have heard and that have been lodged against FAA and your 
actions, because from the first day you took office I asked you 
to do exactly what you did, make those critical decisions, call 
a halt to the dog chasing its tail with these developmental 
programs that didn't go anywhere, the huge amounts of money we 
were spending and not getting hardware and tangible results 
for. So you have done an excellent job in that regard. I just 
have to put that caveat in there.
    My final question, and I do want to yield to other members.
    Mr. Pearce, push-backs, have you seen any? Your success 
depends on a whole bunch of agencies working together. What is 
the real story? Are we getting any push-backs? Be honest. Whole 
truth, nothing but the truth.
    Mr. Pearce. It is a very complex undertaking. We have made 
the most progress in really defining what I would say the core 
NAS transformation, the ATC elements and so forth, and I think 
we have developed an extremely good working relationship with 
sort of the home organization, FAA, and understanding. In fact, 
the reason----
    Mr. Mica. But you don't have any real teeth yet. This is 
the low hanging fruit, and to get to where there are hard 
decisions----
    Mr. Pearce. Absolutely. What we need to do and what we are 
doing is in fact laying out the architecture, laying out the 
kind of putting the roadmap in place, and then, with the 
ability we have, holding people accountable to those objective 
documents. So that is what we are working in cooperation with 
the agencies, and we are not getting push-back.
    I would say that what we need is perhaps to move a little 
faster with more application of people and other resources from 
the agencies so that we can get that document, those analyses 
in place. But we are not getting push-back on the process or 
push-back on the need or the willingness to align once that is 
in place.
    Mr. Mica. Well, I can't get into the European model, but if 
we have another round, I have some more questions.
    Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    I guess, first, Mr. Chew. First, your reviews here look 
like we are starting to change direction on acquisition. That 
is good. And as you perhaps have heard, I mean, for years I 
have always said there is only one agency worse than the 
Pentagon at acquisition, and that was the FAA. And perhaps now 
you are at least up to their level, and maybe hopefully better. 
So that is a good, promising sign.
    When are we going to get a nomination or director for JPDO? 
It sounds like that is absolutely critical. Is there no one in 
the whole wide world here? I mean, it has been six months. What 
is going on?
    Mr. Chew. Yes. It is hard to get the right person. However, 
I am pleased to say that we are well along that process. In 
fact, I am conducting three interviews this week on this very 
position. So I think that we had a false start in the 
beginning. Somebody who we thought was possibly very interested 
didn't work out at the very last minute, so we lost some time 
there. But I think we are going to be very, very close here; we 
have some good candidates on the block and with at least three 
to six interviews coming up over the next three weeks, I think 
we are going to be able to move quickly.
    Mr. DeFazio. On STARS, my understanding is the original 
plan was 170 sites, and you are apparently now limiting, or at 
least in the short-term, deployment to 60 sites. What is going 
to happen to the other 110 sites?
    Mr. Chew. Each one of those locations, as they--we don't 
want to change the system just to change it, but as they come 
up for a need to change, that is when we consider whether or 
not that facility should be changed or should be included in a 
nearby facility that may already have a STARS system. So there 
is considerable improvement in both reliability of the system 
and the backup systems if in fact we do some of what has been 
termed co-locations or consolidations of terminal radar 
facilities.
    So those are actually done on a case-by-case basis and 
through a very rigorous process of scrutiny on exactly what 
that would mean. So that is what those systems would be. And, 
in fact, if that system came up for replacement and it was 
determined that either the adjacent facility was too far or 
wouldn't work very well, then it would be--we would actually 
have to deploy a STARS system to that location.
    Mr. DeFazio. So you mean came up, meaning where they were 
on the schedule for deployment of STARS, is that what you mean? 
Because most of these people are working without modern 
equipment, as far as I know.
    Mr. Chew. No, it is actually a combination of capacity, the 
maintainability of the system that is currently there, how much 
traffic they actually run, and whether that system that is 
currently there really needs to be changed or whether it is 
very reliable, even in its current state.
    Actually, the current radar systems that we have in all the 
terminal facilities are not one system, they are in various 
states of being modernized; some have new processors, some have 
new back room displays and some have new front room displays.
    Mr. DeFazio. Right. So we are not buying vacuum tubes from 
Eastern Europe any more?
    Mr. Chew. No. Thankfully, we are not doing that any more.
    Mr. DeFazio. OK. I am glad to hear that.
    One last question. And I understand that there is a 
problem, and it might not--I guess I could both have Mr. Zinser 
address this and you, but apparently the new communications 
contract is not going well. I understand that we had some 
significant disruption in Chicago because of a failure of what 
seems to me like a fairly simple thing, which is 
telecommunications. I understand we have some DOD contractor 
involved in doing that and are not using one of the operating 
companies. So what is going on there?
    Perhaps Mr. Zinser raised whatever concerns he might have 
about that and then you could respond.
    Mr. Zinser?
    Mr. Zinser. Yes, sir. I think you are referring to the FTI 
program.
    Mr. DeFazio. Yes.
    Mr. Zinser. In the report we issued, the main point that we 
were making is that the project is schedule-driven, that is, it 
is a significant logistical undertaking. In our view, the FAA 
and the contractor were not implementing a schedule that was 
going to actually result in all the cost-savings that they had 
projected. There are four parts to it: there is installing the 
new equipment, accepting the new equipment at each site, 
cutting over to the new equipment from the old, and then 
disconnecting the old. They were planning out the first and 
second part on basically a quarterly basis, and there were some 
coordination problems with the old system and it was falling 
behind schedule. And if you fall behind schedule on a project 
like this, you are not going to get the expected cost savings.
    The service disruptions that you are referring to did occur 
on particular sites, and we have a review going on that right 
now to kind of drill down on those and see what is happening.
    Mr. DeFazio. OK.
    Mr. Chew?
    Mr. Chew. Yes. In fact, out of our new scrutiny that we 
placed on these projects, it was very good that not only did we 
discover this very early in the process of the cut-overs, but 
we appreciate the Inspector General's help, actually, in 
identifying some of these areas we need to look at.
    Let me just mention two things there. One is that the 
schedule of installation was very aggressive. The good news is 
that was a fixed price contract, so the contractor doesn't get 
paid until the new service is accepted at the site. But the 
savings doesn't come until we quit having two services and we 
disconnect the new service--connect the new service and 
disconnect the old service.
    So the good news on the new service acceptances is that we 
are not only at, but we have now exceeded our 700 level per 
month on acceptance. So the field is in fact ramping up and we 
are very happy with that result so far.
    The disconnects are more difficult, and the original 
disconnect schedule was not based on cost-savings, it was based 
on convenience. So we are reordering the disconnect so that we 
can get the savings earlier. And on that I am happy to report 
that we have also been auditing this with our new finance 
department at ATO, and I am very happy to say that so far the 
savings that we projected for this program actually--and it is 
a small sample size, so we don't know how the average will end 
up, but are actually as good or better than we project.
    So I think that the taxpayer will be very pleased as this 
recovery plan rolls out, and given what I have seen, I think we 
can expect the savings that we see and the recovery plan, I 
think, is on track. The next two months are critical for us, 
and we are very, very focused on getting this thing back on 
track.
    Mr. DeFazio. OK, thank you.
    Thank you, Mr. Chairman.
    Mr. Hayes. [Presiding] Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    Mr. Chew, I was very impressed with your very rapid, 
affirmative response to Mrs. Kelly's question, and so it is 
very tempting for me to ask for the use of an FAA plane and 
instructor so I can get my instrument rating.
    [Laughter.]
    Mr. Ehlers. But, of course, I won't do that, because that 
would not be proper.
    Let me, first of all, say that this is one of the most 
upbeat hearings I have had on this topic. I have endured some 
terrible hearings over the past decade on precisely this issue, 
and I think, from everything I hear, I believe you are getting 
a handle on it, and it sounds like it is progressing well. I am 
very concerned about the lack of funding for the FAA at the 
current time, and I am very worried about starving the FAA and 
not permitting them to do a good job on this, because I believe 
it is absolutely crucial.
    And having made those editorial comments, I have very 
little other to ask, because my questions are primarily 
technical, and it would be more suitable to get those answered 
in a briefing, rather than take up the time of everyone here.
    So, with that, I will yield back, Mr. Chairman, with the 
understanding that, at some other time, I will take up my 
questions with you separately.
    Mr. Hayes. I thank the gentleman for yielding back.
    Mr. Matheson is recognized.
    Mr. Matheson. Thank you, Mr. Chairman.
    I know Mr. Costello talked a little bit earlier about the 
funding of the airspace design, the situation with the funding 
there, and wanted to get a sense from you of the impacts of 
this funding shortfall and how it is affecting schedule. And I 
was interested--and I know if you are going to be able to 
answer specifics--how that is affecting the process that has 
been going on for a number of years now regarding the FAA 
looking at airspace design in terms of the Northern Utah 
Airspace Initiative, something started about five, actually, 
six years ago.
    First, I want to thank the FAA for briefing my staff on 
this in May. It was very helpful to get some information on the 
project. This is a project where the FAA has proposed a 
scenario, put it out for comment. A couple of major airlines 
have expressed concerns about the design, as has the Salt Lake 
City Airport Authority. It is my understanding that the FAA, in 
response to the Salt Lake City Airport's alternative proposal, 
engaged MITRE Corporation to do a study to look at the Salt 
Lake City Airport proposal, and I am wondering if you know what 
the status is, where that MITRE study is, and if there is an 
opportunity to review the MITRE study.
    Mr. Chew. I apologize, I don't have that at hand, but I 
would be happy to make sure that gets to you so we can initiate 
a discussion on what can be done.
    Mr. Matheson. I appreciate that. When we had--when my staff 
was briefed by the FAA, one thing we were told is that the FAA 
was in something called a strategic pause and would know what 
the next steps of this overall process were going to be some 
time in the second week of June. And I have also heard from the 
Salt Lake Airport that they have received some conflicting 
information about the timing of the status of the project. So 
with these funding issues in doubt, I am wondering if you do 
have a sense of what the status of the project is or schedule, 
if there is any insight you can offer there.
    Mr. Chew. Well, I think the only insight I can offer is 
that, as was mentioned before, the airspace redesign projects, 
while they may involve some new displays and things, and so 
there is some capital or F&E budget requirement, most of it is 
funded by the operating budget. And as we all know, there were 
priorities in the recision that gave us some pause about which 
ones we could fund this year.
    Now, I will say that those projects that got pushed to the 
lower part of the priority and that were suffering delays from 
this year are back on the docket for doing it in 2007, and our 
submission of a budget in 2007 is meant to put those back on 
track. Most all the analytical work was already done for those; 
it was implementation money and training and these things that 
are part of the operating budget.
    So if there is any delay, and I am not sure that is the 
case, but assuming that there is a delay, my expectation is, 
given our budget climate for 2007 and what our operating budget 
looks like, if we get our request and there isn't any kind of 
unanticipated recision of some kind that is needed, that we can 
put these back on track.
    Mr. Matheson. I think that the one item I would leave with 
you is that I am anxious to make sure that the FAA, even though 
it came up with its original proposal for design, is willing to 
consider alternative proposals by either the airport authority 
local groups that would make traffic flow more efficient but at 
the same time avoid noise impacts over wilderness areas, which 
the concern about the current proposal and play, let alone 
densely populated areas under the FAA's proposal. So I would 
certainly encourage that openness.
    I have some specifics that are probably better for me to 
give you in written form, just like Dr. Ehlers, so if I could 
just submit some written questions to you as well, I will yield 
back the balance of my time.
    Mr. Mica. [Presiding] Thank you.
    And Mr. Costello moves that we keep the record open for at 
least a period of two weeks for additional questions to be 
submitted, and we would appreciate response from the panelists.
    Mr. Hayes.
    Mr. Hayes. Mr. Chew--thank all of you all for being here. 
Sorry I missed the early part--if you had to prioritize the top 
two or three ATC modernization upgrades the FAA can make over 
the next three to five years, what would those be?
    Mr. Chew. I think we are doing them, actually. It was 
mentioned by Mr. Zinser that ERAM was an important program for 
us to watch. ERAM, or En Route Automation, will become our 
future platform for what is the real brain, the guts of how we 
keep airplanes separated today.
    Now, the good news is that has been somewhat modularized, 
so it is on schedule and, in fact, may be slightly under-budget 
right now. So we are very, very focused on that program and 
deploying that one, and we don't want to impose new 
requirements on it as they come up or that program could 
suffer. So what we are doing is, as we look at what is planned 
for the future, we are looking at what phases of the post-
initial deployment will be needed for that.
    FTI is another one, because we have program alongside ADS-B 
in modernization that we call the Systemwide Information 
Management System. That, in fact, is this notion of information 
sharing, much like the Internet of today. FTI is not just 
important from a cost-saving perspective. FTI lays down the 
infrastructure for the Internet for aviation system, which 
would connect airplanes and airlines and business jets and even 
general aviation into the system.
    And once you plug that into the system, we can create 
applications that are valuable to making the system running 
better and create it better for the customer using the system. 
So I think that is a very--not only getting FTI on track, but 
being able to make use of that FTI system with the new 
Systemwide Information Management System, what we call SWIM.
    So those two programs are very important, along with FTI, 
and those are not only on our radar screen, we are monitoring 
those very, very carefully.
    All of our programs are part and parcel to what is 
happening with that. With ADS-B on the horizon, we have retimed 
and scaled back our future long-term radar needs, because we 
believe that as we develop those requirements over the next 
year, ADS-B, that program will tell us exactly how many radars 
we will need in the future, if any. And I suspect there will 
always be something there, at least for the next 10 or 15 
years. But all those programs are working in concert with each 
other, and an integrated plan of how that all fits together, 
along with how many facilities we will have, things like that, 
is part of all of our focus with JPDO and further. So I would 
put those three up at the front.
    Mr. Hayes. Having said all that, that is a lot of good 
expensive cockpit management, sophisticated equipment. What 
happens to the VFR guy in all this? What are your long-range 
plans for VFR and those good folks?
    Mr. Chew. Well, the VFR and the general aviation customer 
is extremely important to us and the growth of that industry. 
We don't anticipate that some of these very, very difficult and 
very high-tech requirements will be required by every airplane 
in the system, because there will be need for some of these VFR 
airplane, whether it is for recreational use or non-
recreational use, to have use of airspace without those 
constraints. It is the really, really busy metropolitan areas 
that will become the most constrained, and they are the ones, 
and those areas, that will need the most technology and 
modernization to be applied to it.
    So we see differing requirements for different segments of 
aviation.
    Mr. Hayes. So VFR will still be a big part of what you do 
and not going to be phased out as a result of--a lot of this 
high-tech equipment keeps your head down in the cockpit, which 
is not always a good thing.
    Mr. Chairman, they didn't announce they were opening Reagan 
National before I got here, did they?
    Mr. Mica. No, but one thing that hasn't been announced, but 
we will be having a meeting that we talked about, and I think 
it will be around the 17th, not the first week we get back, and 
we will have two of the three principals committed to talk 
about that and some other pending issues.
    Mr. Hayes. I want to make sure I didn't miss it. I thank 
you and I yield back my time.
    Mr. Mica. Mr. Costello, did you want to take a quick shot?
    Mr. Costello. Well, Mr. Oberstar is coming in. Let me just 
ask----
    Mr. Mica. Well, we could adjourn now.
    Mr. Costello.--a couple of quick questions.
    We could, but I don't think that would be a good idea.
    [Laughter.]
    Mr. Costello. Mr. Zinser, let me say that in your prepared 
statement you note that you have seen cost estimates and we 
know that the JPDO, in industry workshops, have talked about 
cost, they have thrown some figures out. I wonder what sort of 
funding gap--we have heard others talk about the funding gap. I 
wonder what, from your perspective, what the funding gap is and 
when can this Subcommittee expect to see cost estimates from 
the FAA?
    Mr. Zinser. Mr. Costello, I guess I would say a couple of 
things about the cost estimates. I think that the numbers that 
you have heard today are in the ballpark. There are a couple of 
things going on right now that are very important. One is the 
work that is being done to try to build a single business case 
so you can see what all the different agencies are doing, what 
they have ongoing, and what this program can leverage in terms 
of the work already going on in other agencies. I think that 
that has some dollar implications.
    Mr. Costello. So the numbers we have heard today, they are 
in the ballpark?
    Mr. Zinser. Yes, sir. My concern is that you have to find 
out what you are going to spend it on. The ATO does deserve all 
kinds of credit for not going out and wasting money on projects 
that we don't need. However, if you give an agency a bunch of 
money before you know what you are spending it on. We are 
asking for trouble and the money could be wasted.
    Mr. Costello. Agreed.
    I yield the balance of my time in this round, the next five 
minutes, to Mr. Oberstar.
    Mr. Oberstar. I thank the gentleman for yielding, and I 
appreciate the questioning that he has offered.
    At the outset of my remarks, I referred to the cooperation 
and ultimate involvement of air traffic controllers in 
developing STARS very early on, after a number of stumbles. 
FAA, in a previous administration, realized that they needed to 
engage controllers in the design, in the--before the engineers 
got in and said this is the way it is going to be, consult with 
the controllers and say how do you think it ought to be. There 
is certain expertise they have, certain expertise that 
engineers have.
    But then as I reviewed Mr. Zinser's testimony and a letter 
that just recently came to my attention from GAO to our 
colleague, Sheila Jackson-Lee. I am troubled. The IG statement 
says the union that represents controllers is not yet 
participating in JPDO efforts for a variety of reasons, but 
needs to be. History has shown that insufficient attention to 
human factors can increase the cost of acquisition and delay 
much needed benefits. We have demonstrated that in numerous 
hearings in years passed.
    Problems in the late 1990's with FAA's STARS were directly 
traceable to not involving users early enough in the process, 
which I just referred to. And then the IG goes on to say that 
FAA expects the controllers' role to change from direct 
tactical control of aircraft to one of overall traffic 
management. I know that is still somewhat theoretical, but one 
of some concern as to how well thought out these changes are.
    And the letter from GAO, which was signed by Dr. 
Dillingham, said that the controller who had been acting as 
liaison was among the controllers who returned to his facility, 
and since that time no active controller has participated in 
planning for NGATS.
    Mr. Chew, aren't we missing an opportunity here? Why aren't 
controllers being actively engaged in this process?
    Mr. Chew. Mr. Oberstar, I actually share your exact 
perspective on the need to get the people who have to use the 
system to be part of it, whether it is a controller or a 
technician who touches that equipment.
    Now, the good news is that while we have canceled our 
liaison program, what is important is that we involve the 
controller, not necessarily the union. The air traffic 
controller gives us two really important parts, and one of them 
is the human factors piece that goes into this of any new 
system.
    Now, the JPDO, which is right now modeling what kinds of 
things we will need in the future, isn't even close to that at 
this time, so the involvement of the actual human in the loop 
in design is yet to happen as that concept of operation is 
developed. Now, as that idea matures into something that we 
want to actually test with people attached to it, then it 
becomes very important to do that, and we in fact, in things 
that we do today, even without a liaison program, do involve 
actual air traffic controllers in the process, even though it 
is not in the liaison program.
    For instance, the Houston terminal and en route airspace 
redesign this year, we included air traffic controllers in that 
design process. We also included them in this year's 
productivity evaluation in terms of workload of the current 
system. And we are testing some new en route simulation 
training devices that MITRE helped to develop, and we are using 
actual air traffic controllers in that.
    So I just want to differentiate between air traffic 
controller and the union, because the liaison program was a 
union program to involve air traffic controllers, but we have 
other mechanisms to involve them, and we very much value that 
involvement.
    I will say that the liaison program was very, very 
inefficient, especially when you need someone for just a little 
bit of time. Where we have massive programs where you touch the 
controller like the DSR program, which was a whole replacement 
of the display system that the controller sees, the keyboards 
and things, that is already done and that is over, so those 
aren't needed anymore. But any time we develop a new one, where 
there is an interface that really requires hands-on, I would 
agree with you.
    Mr. Oberstar. Well, I am glad to hear your response, rather 
extensive, but whether involvement of controllers is through 
the union, NATCA, or through controllers just as--whether tower 
or TRACON or en route controllers--as individuals is very, very 
important. I remember in the development of the software for 
STARS, there were many problems that developed where the 
contractor had to go back and change things because FAA had not 
engaged controllers in evaluating what the engineers had 
designed, and that led to delays, to cost increases.
    I note in your testimony the reduction in deployment of 
STARS from the planned 170 to 60 sites, and I know there is 
some consolidation going on at the smaller TRACONS, which was a 
problem that surfaced in the course of the transportation 
appropriations bill last week. Nobody had an idea of what was 
going on, why these consolidations. Had there been a briefing 
for the Committee--not necessarily a hearing, but a briefing--
so that we understand what you are doing, that confrontation on 
the floor could have been avoided.
    But tell me. So you have picked 60 sites. On what basis? I 
know we have the top 50, but some of those top 50 are not among 
the 60. So what goes into the 110? Are they left with ARTS III? 
Is it ARTS IIIE? Is it a color ARTS? What are you going to have 
in those 110 and how are you making that decision?
    Mr. Chew. So the decision on exactly what they need in the 
future--the reason we took the STARS program and we broke it 
into useful segments was because we had some that knew we had 
to do, they were critically needed for either the capacity of 
the radar system or it was getting so old it wasn't 
maintainable.
    Because the radar systems throughout the rest of the 110 
are at different stages, both in terms of modernization--Are we 
going to build a new tower there? Is that an old display with a 
new processor? Is it an old processor with a new display?--each 
one of those is considered and prioritized according to that. 
So it is a function of how much is needed, how much traffic is 
there, whether the traffic forecast can be supported by the 
system there.
    And that is what is part of the next phase. In fact, we 
renamed the STARS program because it isn't just about putting 
the new STARS there; we have actually found that some of the 
older systems that are currently there have been upgraded to 
the point they are extremely reliable. For instance, some of 
our busy sites, while we were developing STARS, the Common ARTS 
system in four of the cities, the major cities, have been 
upgraded to the point that if we put STARS in there, there may 
have been no discernible benefit for a long time. So we made a 
lot of----
    Mr. Costello. Well, that is what some of the controllers at 
MSP were saying to me at the TRACON, that if you put OLLEY in, 
which was an L3 color, and just bracket it on to their existing 
system, that you would have the equivalent of STARS.
    Mr. Chew. That is right. So, in fact, when that would 
become a candidate that needed replacement for whatever reason, 
whether the building was getting old or the system was getting 
old, we would evaluate what the best value is to the system in 
putting that in, rather than just saying, well, let's just make 
it STARS because we have it.
    Mr. Costello. Well, we need to have a much longer 
conversation about that matter so we can better understand how 
you are making these decisions.
    What is the relationship between growth in operations and 
decisions you are making in the JPDO and in the development of 
your new system? For example, what has been the growth in 
operations? I am not talking about passengers, but growth in 
operations--which is important for air traffic control--in the 
en route, in TRACONS, in towers? And within those categories 
are some facilities growing faster since 2001 than others? Will 
aircraft equipment changes have different effects at differing 
facilities?
    For example, the four passenger jet that we are going to be 
seeing in large numbers produced in the United States can be 
operated at ever-smaller runways--ever-shorter runways, I 
should say. And that may increase operations in some areas 
where you haven't had increases and not at others. So what 
assessment have you made of growth in operations, at the 
various three major facilities, approach control, towers, en 
route centers, and do you notice disparities within facilities 
that require equipment upgrades?
    Mr. Chew. It is very different than it was 10 years ago. 
Post-9/11, the marketplace has changed, and there have been new 
business models that have emerged. So what you are seeing is 
that the airports that were crowded before, some of them are 
becoming even more crowded even faster, and some are not 
growing at all. Probably the most recent example of high growth 
and all of a sudden no growth was Washington Dulles, because of 
a new carrier entrant there that suddenly spiked the number of 
operations, and now that operations is down.
    Now, when you are planning the system forward, both 
operationally, both for safety reasons and financially, you 
really do need good forecasts, and to do that you need to study 
the different emerging business models, for instance, the 
business models for the very light jets. And we have been 
engaged in not only looking at those new business models, but 
trying to find which business models make sense at what 
airports, and the airports--we are actually looking at redoing 
our airports plan to engage some of these newer models and to 
see whether or not our old perspective on the 35 largest 
airports or busiest airports needs to be revised in the future 
so that we are more sensitive to these emerging needs of the 
local communities and some of the smaller communities that 
suddenly may be experiencing growth from the new business 
models. So that is very important not us.
    Mr. Costello. Well, I am encouraged to see that you are 
making those evaluations, making those judgments. There are 
other factors, of course, with the A380 entering in service. 
O'Hare Airport manager tells me that they are prepared, they 
are ready; their runway is going to be able to accommodate the 
new aircraft, they are readying the terminal to accommodate 
passenger deplaning and planing.
    But what about the airspace? What have you seen of modeling 
at Toulouse by Airbus of the wake vortex created by the 380, 
and what will be the effect in the airspace of wake vortex and, 
therefore, on separation? We are not going to have hundreds of 
them flying in the airspace at one time, but we are going to 
have some, and there is going to be a wake vortex effect. What 
is it and what effect does it have on your operations?
    Mr. Chew. And, in fact, we are extremely aware of and 
plugged into what the emerging requirement, yet to emerge 
requirement is on what the wake vortex turbulence requirement 
of separation will be for the A380. That is actually still in 
some controversy, but the procedures for separating airplanes 
with needing longer wakes is actually a very well defined 
procedure even today, as we have different wake turbulence 
separations for size airplanes, made easier by the fact that 
there won't be a lot of them all at once, which will help us to 
accommodate that.
    Mr. Costello. Well, thank you. There are many more aspects 
of these issues that I would like to pursue, but I realize time 
is----
    Mr. Mica. And we will welcome questions.
    I am going to do a quick couple of questions round, and 
then if people have other questions, we will either get to them 
or submit them.
    Let me just touch on a couple of points. First of all, I 
have heard the issue raised that there is not enough air 
traffic controller employee input into some of these 
technological changes. Now, I have been out there and I have 
talked to some of the people about some of the problems in 
delays in bringing about the new technology, and part of it I 
viewed--and I think I discussed this with you--that the tail 
was wagging the dog.
    And I welcome the input. I think these are the people that 
have to provide us with input because they work these systems 
day in and day out. But at some point somebody has to make a 
damn decision, and that is what I have wanted you to do, and 
you have done. So we are not turning this into just a continual 
go back to the drawing board effort.
    And, also, some of these technological changes do dilute 
some of the need for having as many personnel, and some of them 
actually provide better safety backups than the human factor. 
So I want to see these technological improvements put in place 
with decisions that are developed again with input, but not 
that being a delay factor. And you have done that, so I thank 
you.
    This contract--Mr. DeFazio is gone--the telecommunications 
contract. Didn't he raise that? I was on the phone. OK. I want 
that to move forward. There have been delays in that. I 
understand that some of that went beyond the expectations.
    If we have to have the Inspector General follow that--I 
don't want the vendors who now have the telecommunications 
service and who benefit by not having the new installation by 
getting more money from the old system and keeping the old 
system in place that doesn't do the job. In fact, if I have to, 
I will direct you to that effort. And I have seen some of those 
people up here trying to screw up the process, and that has got 
to stop too.
    The benefit to that is having twenty-first century modern 
communications system that works and that is installed. That is 
the first benefit, where the backup systems, redundancy, 
whatever. And the second part of that is that we save money. 
And the quicker is installed, we save money. So it may not be 
as much as we looked at in the beginning, but we are going to 
get the damn system done, and I expect tough oversight. And if 
I hear anybody trying to deep-six that, I will sic my dogs on 
them. All right.
    I do have further questions about the schedule, and I do 
want to submit them, because, again, I think it is time for us, 
as soon as we get the schedule gel, and then we can look at the 
costs, I think that it is important that we develop that time 
frame. I am understanding that I am going to get a clearer 
picture of that, and then basically a printout of where we are 
going and that we will have accountable milestones, costs, and 
schedule. OK? All right, so that will be the last thing that I 
require.
    And I will submit the balance of my questions for the 
record.
    Mr. Costello.
    Mr. Costello. Thank you, Mr. Chairman.
    Dr. Dillingham, in your written statement you note that 
there are no current controllers involved or working with the 
Next Generation Initiative, and I wonder if you might tell us 
why that is and why is it important that the controllers be at 
the table and be involved with the Initiative.
    Mr. Dillingham. Mr. Costello, I think this is, in part, 
what was being discussed a few minutes ago in that there was a 
liaison program between NATCA, the controllers' union, and ATO 
for technological developments, and that program was terminated 
in 2005 and the controllers were returned to the boards. At 
that point in time, the controller who worked with JPDO was 
also a part of those controllers that returned to the boards.
    And I think Mr. Oberstar pointed out that it is very 
important, especially from a human factors point of view, that 
you involve those individuals that are going to be working that 
equipment, and particularly in this JPDO NGATS environment, 
where there is going to be a shift in the responsibilities of 
the controllers. It will be a different air traffic management 
system and they will have different responsibilities than they 
have now. So it is very important that the controllers or 
controller expertise be a part of the development of the 
system.
    JPDO has indicated that--and Mr. Chew has also indicated 
today that-when they need controller expertise, they will find 
that expertise and they will have it and use it. We don't, at 
this point, know how that is going to happen, but we assume 
that there is a way that it will happen.
    But the Chairman makes a good point as well, in that you 
need controller input, but you don't need a situation where 
input is such that it stops or delays the implementation of 
technology. So you need to strike a balance, and it is very, 
very important.
    Mr. Costello. It is important that the controllers be at 
the table.
    Mr. Dillingham. Yes, sir.
    Mr. Costello. Very good.
    Mr. Zinser, you mention in your written testimony, you talk 
about the human factor and the importance of workforce safety 
and the implications that that has, and I wonder if you might 
comment on that, as well as the relationship between JPDO and 
the FAA. Do you believe it is adequate? And if not, what do you 
recommend be done to strengthen it?
    Mr. Zinser. In terms of human factors and safety, these are 
many issues that need to be analyzed and understood to get the 
expected increases in capacity the fundamental mission of the 
FAA and the air traffic controllers is safety. Their job is to 
make sure that the planes are separated and operated safely. We 
cannot lose sight of that. Any changes you make in procedures 
or how traffic is separated, is a safety issue. .
    In terms of the relationship between the FAA and the JPDO, 
I think the JPDO has done what they are supposed to have done 
at this point--it is still evolving. The point we made about 
the FAA finding leadership for the JPDO is very important, and 
I think that the things that they have going on right now, such 
as working with OMB to come up with their business case and 
coming up with the architecture, are going to be very important 
steps. We are anxious to see what they come up with.
    Mr. Costello. Final question, and then I have a comment for 
Mr. Chew.
    But, Mr. Pearce, the FAA consolidation, the facility 
consolidation as a part of JPDO, is that a mandate or a mission 
that the JPDO has taken on? Have you been given the 
responsibility? Is it a mandate of the JPDO, the facility 
consolidation?
    Mr. Pearce. No. I mean, there is no mandate on the JPDO to 
do consolidations. It is certainly the role of FAA to look at 
that. Our perspective is one of meeting the goals for the 
future of air transportation, and if consolidation helps us 
along that way, then that will certainly be a part of the plan. 
But consolidation in and of itself is not a goal of the JPDO.
    Mr. Costello. Can you see the goal of accomplishing, 
tripling the capacity by 2025 without consolidation?
    Mr. Pearce. The challenge of tripling capacity is finding 
the right technologies and getting those technologies to the 
system that allow the productivity of the controller, the 
automation, that interface to be there. Consolidation can 
certainly help in that regard in terms of getting the right 
people together in the right facilities, with the right 
automation and so forth, but it is not--like I said, it is not 
a--we haven't determined exactly the ways in which that would 
need to take place and, like I said, it is not a goal, in and 
of itself, to do consolidation. So we really do have to do the 
architecting to see how the people interface with the 
automation and then what the right level of those facilities 
are to come to that determination.
    Mr. Costello. Thank you.
    Mr. Chew, let me associate myself with the remarks made by 
the Chairman in the job that you were doing. We have confidence 
in what you are doing and will continue to work with you. Let 
me say that in the transportation appropriations bill in 2006, 
and then again this year, in the House version, the Congress 
encouraged the FAA to move forward to install the ASDEX radar 
system at O'Hare and to implement the RNAV arrivals and 
descent. Yet, I have been told that the FAA has not taken any 
action to move forward on these initiatives at O'Hare, although 
you have moved forward at other airports with less traffic.
    And I just want to tell you that we still have caps, as you 
know, at O'Hare on a number of flights and the delays persist. 
I will be following up with you with some written questions 
that I would ask that you would respond as quickly as possible 
concerning those issues.
    And on a related topic, we are focused here today talking 
about the year 2025, but there are steps that we can take today 
that will and can dramatically impact capacity and the airline 
fuel costs within a few years, and I would say that 
accelerating the deployment of RNAV and RNP procedures and 
supporting airspace redesign efforts are two prime examples. 
And, Mr. Zinser, let me say that I will be in touch with your 
office to review the progress being made on near-term 
solutions, and there is no question that it is critical that 
the Congress keep these important near-term projects on track.
    So, with that, Mr. Chairman, I will yield back the balance 
of my time.
    Mr. Mica. Thank you.
    Let me get Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    Mr. Zinser, regrettably, your recent report on the status 
of FAA's telecommunications infrastructure, FTI, has been 
mischaracterized by some interested parties. I wanted to 
confirm that your report did not raise any safety issues 
involved with implementation of FTI. Is that correct?
    Mr. Zinser. That is correct, sir. Our report did not 
include any safety issues identified.
    Mr. Hayes. Thank you.
    Mr. Chairman, I yield back.
    Mr. Mica. Let me just--everybody has had a final word here.
    We were talking about where we were in JPDO, and one of the 
things that was mentioned--I think someone raised a question 
about Europe--in my opening statement I made some comments we 
ought to look at it, and then they raised questions about it, 
and then you commented, Mr. ElSawy, that, as far as 
organization, they were ahead of us.
    Don't you see us needing to get to some point where we sort 
of have some teeth in this and some organization that can make 
decisions and move forward? Because right now you don't have 
that capability. You know, like I said, they are picking low-
hanging fruit. I mean, aren't we getting pretty close to where 
we are going to need that?
    Mr. ElSawy. I think, as I mentioned, in Europe, what they 
have chosen to do is to basically let out a contract to a 
consortium of 32 companies of industry to do the initial 
planning for the JPDO or for the Next Generation Air 
Transportation System, and they have developed a fairly 
comprehensive governance model for how those companies interact 
with each other.
    I think in the United States, with the interagency 
agreements, the work that the JPDO is currently doing on the 
concept of operations the development of the architecture, and 
then working with the NGATS Institute really should focus on 
that activity of how industry will engage in the future, how 
the contracts will flow, and then, at the appropriate time, 
what is the right balance between industry participation and 
government participation. So I think we are getting there.
    Mr. Mica. The other thing is maybe in talking with Mr. 
Chew, I don't know when we come up with the cost, there will be 
costs absorbed by other agencies, too. Looking at that whole 
picture, we may get a better idea of how we may need to put 
some other authority together to make things happen.
    Mr. ElSawy. I think Inspector General Zinser really hit the 
nail on the head in the sense that the budget process that 
drives the JPDO governs the progress and governs our ability to 
really have an integrated plan. This is a very complicated 
process; it is really an experiment in government in the sense 
of coordinating the budgets and the projects and the programs 
with multiple agencies, multiple authorities, multiple years, 
different missions. So it is fairly complex.
    Mr. Mica. But then you have got the other part of the 
equation is getting the compliance and setting some 
implementation. I mean, there is cost involved to air 
carriers,----
    Mr. ElSawy. Absolutely
    Mr. Mica. --to general aviation, to a whole host of folks. 
And we are going to have to have some teeth, we are going to 
have to have some deadlines, and we are going to have to have 
some implementation schedule that is going to be tough.
    Well, again, we will have additional questions. A very 
interesting hearing. We got some great witnesses today who 
provided us, I think, at least with a good status report. 
Hopefully we can get the balance of the blueprint in additional 
meetings and hearings.
    There being no further business before the Subcommittee 
today, again, we thank you, and this hearing is adjourned.
    [Whereupon, at 4:47 p.m., the subcommittee was adjourned.]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 










</pre></body></html>
